<html>
<title> - THE COUNCIL ON ENVIRONMENTAL QUALITY'S FY 2013 FUNDING REQUEST AND THE EFFECTS ON NEPA, NATIONAL OCEAN POLICY AND OTHER FEDERAL ENVIRONMENTAL POLICY INITIATIVES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
          THE COUNCIL ON ENVIRONMENTAL QUALITY'S FY 2013 FUNDING 
           REQUEST AND THE EFFECTS ON NEPA, NATIONAL OCEAN POLICY 
           AND OTHER FEDERAL ENVIRONMENTAL POLICY INITIATIVES
=======================================================================



                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        Wednesday, March 7, 2012

                               __________

                           Serial No. 112-100

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
73-228                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Paul Tonko, NY
Andy Harris, MD
Jeffrey M. Landry, LA
PJon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, March 7, 2012.........................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts.....................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Sutley, Hon. Nancy, Chair, Council on Environmental Quality, 
      Co-Chair, National Ocean Council...........................     6
        Prepared statement of....................................     8



 OVERSIGHT HEARING ON ``THE COUNCIL ON ENVIRONMENTAL QUALITY'S FY 2013 
  FUNDING REQUEST AND THE EFFECTS ON NEPA, NATIONAL OCEAN POLICY AND 
           OTHER FEDERAL ENVIRONMENTAL POLICY INITIATIVES.''

                              ----------                              


                        Wednesday, March 7, 2012

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to notice, at 10:06 a.m., in 
Room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Young, Lamborn, Fleming, 
Thompson, Rivera, Tipton, Southerland, Flores, Johnson, Markey, 
Kildee, Napolitano, Holt, Bordallo, Costa, Sablan, Lujan, 
Sarbanes, Hanabusa, and Tonko.
    The Chairman. The Committee will come to order and the 
Chairman notes the presence of a quorum, which under Rule 3(e) 
is two Members. We exceeded that.
    The Committee on Natural Resources is meeting today to hear 
testimony for an oversight hearing on the Council on 
Environmental Quality's Fiscal Year 2013 funding request, and 
the effects on NEPA, National Ocean Policy, and other Federal 
environmental initiatives. Under our Rule 4(f), opening 
statements are limited to the Chairman and the Ranking Member. 
However, I ask unanimous consent that any Member wishing to 
have opening statements included in the record, that they be 
submitted to the Clerk of the Committee prior to the close of 
business today.
    [No response.]
    The Chairman. And without objection, so ordered. I will now 
recognize myself for five minutes.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. I want to thank Chairwoman Sutley for coming 
to this committee, and I will make the formal introduction in a 
moment.
    As many Members may know, despite having jurisdiction over 
the National Environmental Policy Act and the Council on 
Environmental Quality, this committee has not held an oversight 
hearing over CEQ's budget for many years.
    As the environmental policy arm of the White House, CEQ 
provides guidance to all Federal agencies through policy 
initiatives and the interpretation of statutes and regulations. 
As such, many of the initiatives developed by CEQ affect 
agencies and programs within this committee's jurisdiction.
    One of these policy initiatives that we have significant 
interest in is the National Ocean Policy. This committee has 
already held two oversight hearings on the National Ocean 
Policy. Unfortunately, we still have many of the same concerns 
and questions as we had before the hearings.
    While the main purpose of this hearing is to review the 
budget request of CEQ, that document does not provide much 
detail on how the funding will be used to implement the variety 
of environmental issues. I hope this hearing serves as a way to 
get more information on how the National Ocean Policy 
specifically is being funded.
    Along those lines, almost two weeks ago, I sent a letter to 
Chair Sutley asking a number of questions and requesting a 
number of documents. While I understand some of these requests 
will take some time to comply with, I certainly hoped for 
answers to the budget-related questions prior to today's 
hearing. Unfortunately, that was not the case.
    I asked the questions because the National Ocean Policy 
appears to be a very large undertaking, one that will require a 
lot of resources from a lot of different agencies. Yet no 
agency seems to be requesting funding specifically for this 
purpose. This implies to me that either nothing is planned for 
Fiscal Year 2013 to implement this policy, which I find hard to 
believe, or all of these agencies are quietly siphoning money 
from other activities to fund this unauthorized activity.
    Since it appears many agencies are implementing the policy 
despite the fact that the Implementation Plan is still in draft 
form, I can only assume agencies are reluctant to tell Congress 
how much they are spending and where the money is coming from.
    In the letter, I asked a number of specific questions 
regarding the funding of the June 2010 workshop held here in 
Washington, D.C., and the funding of the Governance 
Coordinating Committee, the GCC, a body that has already been 
appointed and is apparently holding meetings.
    Despite the fact that this whole National Ocean Policy is 
supposed to be conducted in a transparent manner, this body has 
met in closed session a number of times. I am unaware of any 
notice of the meetings being published, and there are no 
transcripts or notes available from any of the meetings.
    And, despite the National Ocean Policy's intent to reach 
inland activities to the uppermost reaches of each watershed 
and tributary, there are no inland states represented on the 
GCC. This does not bode well for inclusiveness.
    The letter also requested the public comment period for the 
Draft National Ocean Policy Implementation Plan to be extended 
for 90 days. Although CEQ granted only a 30-day extension, this 
extension may have been for naught, based on comments we have 
reviewed so far, since many of the affected industries feel 
that their continued participation in the process is being 
ignored. So, I would once again ask for the full 90-day 
extension.
    We will likely hear today how huge strides have been made 
by allowing the Regional Fishery Management Councils to have a 
seat on the Regional Planning Bodies. Unfortunately, it is done 
in such a tortured manner that it really just gives the 
Governor another governmental seat. It is amazing, the steps 
being taken, from my point of view, in order to appear to be 
transparent, when in fact the Regional Planning Bodies remain 
FACA-exempt bodies.
    So, I want to thank Chair Sutley for coming here before our 
committee today. I look forward to your testimony, and a 
continued dialogue, including full answers to the letter that I 
referenced earlier about your budget and about the National 
Ocean Policy.
    And with that, I yield back my time and recognize the 
distinguished Ranking Member.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    I want to thank Chairwoman Sutley for coming before this Committee 
again.
    As many Members may know, despite having jurisdiction over the 
National Environmental Policy Act and the Council on Environmental 
Quality, this Committee has not held an oversight hearing over CEQ's 
budget for many years.
    As the environmental policy arm of the White House, CEQ provides 
guidance to all federal agencies through policy initiatives and the 
interpretation of statutes and regulations. As such, many of the 
initiatives developed by CEQ affect agencies and programs within this 
Committee's jurisdiction. One of these policy initiatives that we have 
significant interest in is the National Ocean Policy.
    This Committee has already held two oversight hearings on the 
National Ocean Policy. Unfortunately, we still have many of the same 
concerns and questions after the hearings.
    While the main purpose of this hearing is to review the budget 
request of CEQ, that document does not provide much detail on how the 
funding will be used to implement the variety of environmental 
initiatives. I hope this hearing serves as a way to get more 
information on how the National Ocean Policy specifically is being 
funded.
    Along those lines, almost two weeks ago, I sent a letter to Chair 
Sutley asking a number of questions and requesting a number of 
documents. While I understand some of these requests will take some 
time to comply with, I certainly hoped for answers to the budget-
related questions prior to today's hearing. Unfortunately, that was not 
the case
    I asked the questions because the National Ocean Policy appears to 
be a very large undertaking--one that will require a lot of resources 
from a lot of different agencies. Yet no agency seems to be requesting 
funding specifically for this purpose.
    This implies to me that either nothing is planned for FY 2013 to 
implement the Policy, or all of these agencies are quietly siphoning 
money from other activities to fund this unauthorized activity. Since 
it appears many agencies are implementing the Policy despite the fact 
that the Implementation Plan is still in draft form, I can only assume 
agencies are reluctant to tell Congress how much they are spending and 
where the money is coming from.
    In the letter, I asked a number of specific questions regarding the 
funding of the June 2010 workshop held here in Washington, D.C. and the 
funding of the Governance Coordinating Committee (GCC)--a body that has 
already been appointed and is apparently holding meetings. Despite the 
fact that this whole National Ocean Policy is supposed to be conducted 
in a transparent manner, this body has met in closed session a number 
of times. I am unaware of any notice of the meetings being published 
and there are no transcripts or notes available from any of the 
meetings.
    And despite the National Ocean Policy's intent to reach inland 
activities to the uppermost reaches of each watershed and tributary, 
there are no inland states represented on the GCC. This does not bode 
well for transparency and inclusiveness.
    The letter also requested the public comment period for the Draft 
National Ocean Policy Implementation Plan be extended for 90 days. 
Although CEQ granted only a 30-day extension, this extension may have 
been for naught based on comments we have reviewed so far, since many 
of the affected industries feel that their continued participation in 
the process is being ignored. I ask again that you provide the 
extension for the full 90 days.
    We will likely hear today how huge strides have been made by 
allowing the Regional Fishery Management Councils to have a seat on the 
Regional Planning Bodies. Unfortunately, it's done in such a tortured 
manner that it really just gives the Governor another governmental 
seat. It's amazing the steps being taken in order to appear to be 
transparent when in fact the Regional Planning Bodies remain FACA-
exempt bodies.
    I want to thank Chair Sutley for coming before our Committee again 
today and I look forward to your testimony and a continuing dialog 
including full answers to the letter I referenced earlier, and about 
your budget and the National Ocean Policy.
                                 ______
                                 

  STATEMENT OF THE HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman. And welcome, Madame 
Chair.
    Since its creation 42 years ago, the Council on 
Environmental Quality has played an integral role in helping 
Presidents of both parties protect America's environment while 
growing our economy. As one of those Presidents said, ``The 
price of economic growth need not and will not be deterioration 
in the quality of our lives and our surroundings.''
    I don't often quote Richard Nixon, but he was right in that 
instance, and he was right to sign the National Environmental 
Policy Act in 1970. In addition to creating CEQ, the National 
Environmental Policy Act required that the Federal Government 
assess the impact of Federal actions on the environment, and 
gave the public an opportunity to participate in the decision-
making process.
    Through NEPA, Congress ensured that Federal agencies could 
no longer make decisions unilaterally. CEQ serves a critical 
function in coordinating actions involving multiple agencies, 
and providing uniform guidance and pilot programs to share 
cost-reducing and time-saving strategies between agencies. From 
protecting the Colorado River drinking water supplies from 
pollution coming from uranium mill waste in Moab, Utah, to 
anticipating the risk of wildfire to the nuclear research labs 
at Los Alamos, NEPA and CEQ have a history of helping to find 
solutions to complex environmental challenges.
    That history continues today, with CEQ's leadership in the 
creation and implementation of the President's National Ocean 
Policy. It provides, at long last, a unifying framework to 
better coordinate and integrate over 100 different existing 
laws, policies, and regulations affecting oceans, coasts, and 
the Great Lakes.
    Our ocean and coastal areas are a vital part of the U.S. 
economy, supporting tens of millions of jobs, and contributing 
trillions of dollars annually to our national economy. The 
growing utilization of our ocean and coastal areas is placing 
significant pressures on these natural resources, and the 
National Ocean Policy will help protect, maintain, and restore 
our national and coastal resources. CEQ is also helping the 
Federal Government save money and reduce pollution by 
increasing energy efficiency, and reducing the use of fossil 
fuels.
    In January 2010, President Obama announced that the Federal 
Government would reduce its emissions of global warming 
pollution by 28 percent from 2008 levels by 2020. This will 
create cumulative savings of $8 billion to $11 billion in 
avoided energy costs. CEQ is helping to maximize taxpayers' 
dollars into the government's work, and not waste.
    In leading the Interagency Climate Change Adaption Task 
Force, CEQ is also helping the Federal Government to respond to 
and plan for the impacts of climate change. The United States 
is also experiencing--is already experiencing climate change, 
including more frequent and extreme rainfall, longer wildfire 
seasons, reduced snowpack, extreme heat events, increasing 
ocean temperatures, and rising sea levels.
    Last year showed us the economic consequences of extreme 
weather, as we suffered a record 14 weather disasters that 
caused $1 billion or more in damage. CEQ's vision of a 
resilient, healthy, and prosperous Nation in the face of 
changing climate is one we should all share.
    A year after President Nixon signed the National 
Environmental Policy Act into law, another iconic American 
environmental text was published. Dr. Seuss captured the 
concerns of the time about ``smogulous'' smoke and water so 
smeary. In The Lorax he gave us someone to speak for the trees. 
I will take a moment to speak for CEQ.
    What will we do if we lose CEQ? Just a moment. I will tell 
you. We would find a lonely place that is in a disgrace, where 
rivers burn and fish can't swim, where the air is thick and the 
sunlight dim. It would be a sad place that time forgot. Unless 
someone like you funds CEQ, nothing is going to get better. It 
is not.
    I urge this committee to support the critical work that CEQ 
does to ensure harmony between our environment and our economy. 
And I yield back, Mr. Chairman, the balance of my time.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Since its creation 42 years ago, CEQ has played an integral role in 
helping presidents of both parties protect America's environment while 
growing our economy.
    As one of those presidents said:
        ``The price of economic growth need not, and will not be, 
        deterioration in the quality of our lives and our 
        surroundings.''
    I don't often quote Richard Nixon, but he was right in that 
instance. And he was right to sign the National Environmental Policy 
Act in 1970.
    In addition to creating CEQ, the National Environmental Policy Act 
required that the federal government assess the impact of federal 
actions on the environment and gave the public an opportunity to 
participate in the decision-making process. Through NEPA, Congress 
ensured that Federal agencies could no longer make decisions 
unilaterally.
    CEQ serves a critical function in coordinating actions involving 
multiple agencies and providing uniform guidance and pilot programs to 
share cost-reducing and time-saving strategies between agencies.
    From protecting the Colorado River and drinking water supplies from 
pollution coming from uranium mill waste in Moab, Utah to anticipating 
the risk of wildfire to the nuclear research labs at Los Alamos, NEPA 
and CEQ have a history of helping to find solutions to complex 
environmental challenges.
    That history continues today with CEQ's leadership in the creation 
and implementation of the President's National Ocean Policy. It 
provides, at long last, a unifying framework to better coordinate and 
integrate over 100 different existing laws, policies, and regulations 
affecting the oceans, coasts, and Great Lakes.
    Our ocean and coastal areas are a vital part of the U.S. economy, 
supporting tens of millions of jobs and contributing trillions of 
dollars annually to our national economy. The growing utilization of 
our ocean and coastal areas is placing significant pressures on these 
natural resources and the National Ocean Policy will help protect, 
maintain, and restore our ocean and coastal resources.
    CEQ is also helping the Federal government save money and reduce 
pollution by increasing energy efficiency and reducing the use of 
fossil fuels. In January 2010, President Obama announced that the 
Federal government would reduce its emissions of global warming 
pollution by 28 percent from 2008 levels by 2020. This will create 
cumulative savings of 8 to 11 billion dollars in avoided energy costs. 
CEQ is helping maximize taxpayers' dollars into the government's work, 
not waste.
    In leading the Interagency Climate Change Adaptation Task Force, 
CEQ is also helping the Federal government respond to and plan for the 
impacts of climate change. The United States is already experiencing 
climate change including:
        <bullet>  more frequent and extreme rainfall,
        <bullet>  longer wildfire seasons,
        <bullet>  reduced snowpack,
        <bullet>  extreme heat events,
        <bullet>  increasing ocean temperatures and
        <bullet>  rising sea levels.
    Last year showed us the economic consequences of extreme weather as 
we suffered a record 14 weather disasters that caused 1 billion dollars 
or more in damage. CEQ's vision of a ``resilient, healthy and 
prosperous Nation in the face of a changing climate'' is one we should 
all share.
    A year after President Nixon signed the National Environmental 
Policy Act into law, another iconic American environmental text was 
published.
    Dr. Seuss captured the concerns of the time about ``smogulous 
smoke'' and ``water so smeary''. In the Lorax, he gave us someone to 
speak for the trees. Now, I will take a moment to speak for CEQ.
        What will we do if we lose CEQ?
        Just listen a moment, I will tell you.
        We'd find a lonely place, that's in a disgrace.
        Where rivers burn and fish can't swim,
        Where the air is thick and the sunlight dim,
        It would be a sad place that time forgot!
        Unless someone like YOU funds CEQ,
        Nothing is going to get better. It's not.
    I urge this Committee to support the critical work that CEQ does to 
ensure harmony between our environment and our economy.
                                 ______
                                 
    The Chairman. I thank the gentleman for his statement. And 
of course, the big news there is your adoration of President 
Nixon.
    [Laughter.]
    The Chairman. Which I know is a stretch, in fairness.
    We only have one witness here today, the Chairwoman of the 
Council on Environmental Quality. And Chairwoman Sutley, thank 
you very much for being here again.
    Just to review the timing lights, your full statement will 
appear in the record. And when the green light comes on, it 
means you are doing well. When the yellow light comes on, it 
means you have 30 seconds. And the red light, of course, is 
your time has expired. So I would like to keep your timing to 
that, if you could, so we can have as much interaction with the 
Members as possible.
    With that, I recognize you now for five minutes, and thank 
you very much for being here.

            STATEMENT OF NANCY SUTLEY, CHAIRWOMAN, 
                COUNCIL ON ENVIRONMENTAL QUALITY

    Ms. Sutley. Thank you, Mr. Chairman, Ranking Member Markey, 
and members of the Committee. I appreciate the opportunity to 
discuss the President's Fiscal Year 2013 budget request for the 
Council on Environmental Quality.
    As the President outlined in his Blueprint for an America 
Built to Last, the President's budget reflects the importance 
of safeguarding our environment, and strengthening our economy 
by investing in clean energy, innovation, and manufacturing.
    The budget also focuses on living within our means, which 
is why CEQ's budget request includes a reduction from the 
Fiscal Year 2012 level.
    As you may know, CEQ plays a coordinating role among 
Federal agencies. This helps to avoid redundancy and conflict, 
and foster cohesive environmental policy. We have focused our 
efforts on several priority areas, including: implementing and 
modernizing the National Environmental Policy Act; enhancing 
Federal Government sustainability; improving the stewardship of 
the oceans, coasts, and Great Lakes; protecting and restoring 
America's ecosystems; and promoting clean energy.
    I would like to take this opportunity to share some of our 
progress with you. One of CEQ's primary focuses has been 
improving the efficiency and effectiveness of the NEPA process. 
Over the past year, CEQ has helped agencies expedite review of 
priority job-creating infrastructure projects, established 
interagency rapid response teams to expedite review of priority 
renewable energy transmission and transportation projects, 
launched a NEPA pilot program to solicit ideas from Federal 
agencies and the public about innovative time- and cost-saving 
approaches to NEPA implementation, and issued new guidance for 
agencies on improving the efficiency of the NEPA process, 
overall.
    These represent just a few of the many steps we have taken 
to promote efficiency and speed the delivery of projects that 
create jobs--that we can engage the public in decisions, and 
protect the health of American communities.
    CEQ is also responsible for overseeing the President's 
directive to enhance the sustainability of Federal Government 
operations. The Federal Government is the largest energy 
consumer in the U.S. economy, spending more than $20 billion on 
energy in 2010, according to preliminary estimates. In 2009, 
the President signed an executive order that sets 
sustainability performance goals for Federal agencies. Agencies 
are advancing toward these goals, which can help avoid up to 
$11 billion in energy costs by 2020.
    CEQ also oversees the National Ocean Policy, which the 
President established in response to more than a decade of 
discussions, extensive public input, and calls for action from 
two bipartisan commissions.
    As I stated before this committee in October, the National 
Ocean Policy provides the framework for all Federal agencies to 
better work together and avoid the kinds of conflicts that 
often delay or derail projects that support the economy and 
coastal communities. At its heart, this policy is about 
efficiency, reducing red tape, and making faster, more informed 
decisions. And a key aspect of the National Ocean Policy has 
been extensive public engagement and transparency.
    The Administration has also focused on protecting and 
restoring the country's valuable lands and waters. America's 
outdoor economy supports more than 9 million jobs and brings in 
more than $1 trillion a year. The President launched the 
America's Great Outdoors initiative to develop a 21st Century 
conservation agenda, in partnership with the American people. 
Under this initiative, the Administration is expanding 
recreational access to public lands, partnering with private 
land owners to open millions of acres for hunting and fishing, 
and supporting community-led conservation projects.
    As the President outlined in his State of the Union, the 
Administration is focused on building an economy that is built 
to last. We at CEQ are doing our part to support job creation 
and clean energy.
    An example of one of these efforts is the Better Buildings 
initiative, which seeks to improve energy efficiency in 
commercial buildings, and has secured nearly $2 billion in 
private financing for building energy upgrades.
    Mr. Chairman, Ranking Member Markey, as you know, the 
Administration has requested $3.1 million for CEQ for Fiscal 
Year 2013, a reduction of 1.3 percent from Fiscal Year 2012.
    I am proud of what we have accomplished over the past three 
years, and I am looking forward to continuing our progress this 
year. I appreciate the opportunity to appear before you this 
morning, and look forward to answering your questions.
    [The prepared statement of Ms. Sutley follows:]

      Statement of Nancy Sutley, Council on Environmental Quality

    Chairman Hastings, Ranking Member Markey, and Members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss the President's Fiscal Year 2013 Budget request for the Council 
on Environmental Quality (CEQ). As the President has outlined in his 
Blueprint for an America Built to Last, the President's budget reflects 
the importance and complementarity of safeguarding our environment and 
strengthening our economy by investing in clean energy, innovation, and 
manufacturing. We at CEQ are pleased to play a part of that broader 
effort to speed up the economic recovery. But the budget also focuses 
on living within our means, which is why CEQ's FY 2013 budget request 
includes a reduction from last year's level. Those of us in public 
service are committed to continuing to find ways to make the Federal 
Government more efficient and more effective.
    I would like to briefly discuss CEQ's role, our accomplishments to 
date, and what fully-funding the Administration's request for CEQ in FY 
2013 will allow us to accomplish.
Council on Environmental Quality's Role
    The Council on Environmental Quality was established by Title II of 
the National Environmental Policy Act (NEPA). Signed into law by 
President Nixon on January 1, 1970, following overwhelming bipartisan 
votes in both the House and Senate, NEPA is a cornerstone of our 
country's commitment to responsive government and informed decision-
making. Under NEPA, CEQ has the following responsibilities:
        1)  To advise the President on national environmental policies 
        and priorities;
        2)  To review and appraise Federal Government activities 
        relating to environmental policy objectives, and to coordinate 
        and resolve disputes among Federal agencies and departments' 
        activities relating to the environment; and
        3)  To implement NEPA and develop appropriate regulations.
    As Chair of CEQ, I serve as the President's principal environmental 
policy adviser, and in this capacity I develop policies, set 
priorities, and coordinate efforts of the many Federal agencies and 
departments. I am supported in these actions by my Deputy Director and 
General Counsel, Gary Guzy, and our staff in the Council of 
Environmental Quality.
CEQ Accomplishments from 2011
    As you may know, CEQ's coordinating function helps to avoid 
redundancy and conflict while fostering efficiency and policy 
innovation across the Federal Government. Much of our focus the past 
year has been in the areas of streamlining Federal decision-making, 
sharing best practices, supporting job creation and facilitating 
interagency collaboration pertaining to NEPA.
    Over the course of the last year, we have focused our efforts on 
several priority areas:
        1)  Implementing and modernizing NEPA;
        2)  Enhancing Federal Government sustainability;
        3)  Improving the stewardship of the ocean, our coasts, and the 
        Great Lakes;
        4)  Protecting and restoring America's ecosystems; and
        5)  Promoting clean energy and addressing climate change.
    CEQ, working alongside Federal Departments and Agencies, made 
progress in many of these areas, and I would like the take this 
opportunity to share those accomplishments with you.
  1) Implementing and Modernizing NEPA
    Over the past year, CEQ has intensified its ongoing work to 
accelerate infrastructure project delivery by modernizing agency 
implementation of NEPA and improving the overall efficiency and 
effectiveness of Federal environmental review and permitting processes.
    Recognizing that the health of our environment and the health of 
the economy are inextricably linked, this Administration has focused on 
improving, and demonstrated a positive track record on, NEPA 
implementation. Over the course of the last three years, we have 
focused our efforts on:
        <bullet>  A robust effort to revise our NEPA guidance documents 
        to Federal Agencies;
        <bullet>  An active dialogue with the general public on 
        evidenced-based NEPA reforms; and
        <bullet>  Active engagement with the President's Jobs Council 
        and Federal agencies on enhanced collaboration on expedited 
        permitting for infrastructure projects.
    On the last point, we believe our work on expedited permitting for 
infrastructure projects enhances Agency collaboration and be 
transferable to a broader universe of job-creating infrastructure 
projects, as well as to help realize broader permitting efficiencies 
that can be made.
    NEPA requires the government to analyze and publicly disclose the 
environmental consequences of its proposed actions before undertaking 
actions that could significantly affect the human environment. CEQ's 
tracking of Federal NEPA reviews for 193,000 American Recovery and 
Reinvestment Act (ARRA) projects revealed that 99.9% were completed by 
September 30, 2011. Agencies were able to apply Categorical Exclusions 
(the least intensive form of NEPA review) to 96% of ARRA projects. 
Environmental information and public input obtained through the NEPA 
process helped agency decisionmakers choose cheaper, more efficient, 
and more sustainable ARRA project designs.
    For major projects, the NEPA process can provide a vehicle for 
coordinating other permitting and planning requirements at the Federal, 
State, local, and tribal levels, and avoiding duplicative and 
unnecessary sequential reviews. Through interagency coordination and 
oversight of Federal NEPA implementation, CEQ is leading or 
participating in several efforts to achieve these objectives, either by 
accelerating decisions on particular priority projects, or advancing 
broad reforms to the overall process.
    In response to recommendations from the President's Jobs Council, 
CEQ has worked closely with other offices on implementation of the 
August 31, 2011, Presidential Memorandum on ``Speeding Infrastructure 
Project Delivery.'' Specifically, CEQ is working to facilitate 
agencies' review of 14 high-priority job-creating infrastructure 
projects for expedited environmental review and permitting decisions. 
CEQ also consulted with other offices on the design and launch of the 
Federal Infrastructure Projects Dashboard, where Federal agencies 
publicly track schedules and status information on pending Federal 
actions for the 14 priority projects.
    CEQ has also established three sector-specific Rapid Response Teams 
(RRTs)--for Renewables, Transmission, and Transportation. Each RRT 
consists of senior staff representatives from the relevant action and 
resource agencies, who meet bi-weekly to set priorities, resolve 
issues, and report on progress. Through the RRTs, sector-specific 
priorities gain greater visibility in Federal agencies with 
jurisdiction over relevant permitting environmental approval decisions.
        <bullet>  The Renewables RRT is developing a roadmap of Federal 
        regulatory requirements for project developers.
        <bullet>  The Transmission RRT is coordinating statutory 
        permitting, review, and consultation schedules between Federal 
        and State agencies for seven high-priority transmission lines.
        <bullet>  The Transportation RRT is facilitating coordination 
        and issue resolution to expedite the six priority 
        transportation projects selected by DOT under the Presidential 
        Memorandum on Speeding Infrastructure Delivery.
NEPA Pilot Program
    In March 2011, CEQ launched a NEPA Pilot Program to solicit ideas 
from Federal agencies and the public about innovative time- and cost-
saving approaches to NEPA implementation. CEQ will work with project 
managers to track implementation and advocate that Agencies incorporate 
these best practices and lessons learned into new or revised NEPA 
procedures.
    Two of the pilot projects are focused on disseminating IT solutions 
to improve the NEPA process. One pilot identified web-based tools 
developed by the National Park Service and the U.S. Forest Service that 
significantly shorten the amount of time needed to manage environmental 
reviews. Through another pilot project, CEQ is working with EPA on the 
public release of NEPAssist, a GIS database of environmental data. 
Providing easy access to consolidated environmental information during 
initial project development, siting, and design will reduce and 
minimize the time and effort required to address environmental, safety, 
and health concerns.
    Another pilot will gather lessons-learned from Federal and non-
Federal NEPA practitioners who have significant experience preparing 
Environmental Assessments to develop best practice principles designed 
to assist in preparing more efficient and cost-effective NEPA 
environmental reviews.
    In January 2012, CEQ and DOT announced a pilot project to cut costs 
and fast track construction for the high-speed inter-city passenger 
rail project in the Northeast Corridor between Washington, D.C., and 
Boston, MA. The Northeast Rail Corridor is the busiest rail corridor in 
the United States, and expediting this environmental review will lead 
to more jobs and a stronger regional economy. The pilot will engage 
government stakeholders and the public in the environmental review 
process earlier to set benchmarks that maintain rigorous environmental 
protections and save time and costs by avoiding conflicts and delays in 
the later steps of rail-project development.
    Finally, in February 2012, CEQ and the U.S. Forest Service 
announced the selection of a NEPA Pilot, ``Approaches to Restoration 
Management,'' that will evaluate and compare the effectiveness of U.S. 
Forest Service environmental reviews for two innovative and 
collaborative forest restoration projects.
NEPA Efficiencies
    In addition to these initiatives, CEQ has continued to exercise its 
statutory authority under NEPA to provide guidance to Federal agencies 
on how best to comply with the procedural requirements of NEPA. Since 
2009, CEQ has issued several new guidance documents to advise Federal 
agencies on more efficient approaches to NEPA.
        <bullet>  In May 2010, CEQ issued guidance on Emergencies and 
        NEPA that addressed how agencies can ensure efficient and 
        expeditious compliance with NEPA when agencies must take 
        exigent action to protect human health or safety and valued 
        resources in a timeframe that does not allow sufficient time 
        for the normal NEPA process. This guidance also addressed how 
        agencies, in any situation including emergencies, can develop 
        focused and concise Environmental Assessments (EAs) to provide 
        an expeditious path for making decisions when the proposed 
        action does not have the potential for significant impacts.
        <bullet>  In November 2010, CEQ finalized guidance on how to 
        establish and use ``categorical exclusions'' (CEs) for 
        activities--such as routine facility maintenance--that do not 
        need to undergo intensive NEPA review because the activities do 
        not individually or cumulatively have significant environmental 
        impacts. The CE guidance reinforced the value of categorical 
        exclusions.
        <bullet>  In January 2011, CEQ issued guidance on the use of 
        mitigation commitments in EAs. Agencies often use EAs to 
        identify mitigation measures that, when implemented, will 
        eliminate potential significant impacts that might require 
        review in a more intensive Environmental Impact Statement 
        (EIS).
        <bullet>  In December 2011, CEQ issued new draft guidance for 
        public comment on improving the efficiency of the NEPA process 
        overall, by integrating planning and environmental reviews, 
        avoiding duplication in multi-agency or multi-governmental 
        reviews and approvals, engaging early with stakeholders, and 
        setting clear timelines for the completion of reviews.
    Finally, CEQ has fulfilled its responsibilities to review proposed 
agency NEPA implementing procedures with an eye to improving agency 
NEPA compliance in a timely and efficient manner.
Retrospective Review of NEPA Regulations
    In January 2011, President Obama issued Executive Order 13563, 
calling on agencies to engage in retrospective regulatory analysis of 
rules that may be outmoded, ineffective, insufficient, or excessively 
burdensome. To meet its obligations to improve our regulatory system by 
protecting public health, welfare, safety, and our environment while 
promoting economic growth, innovation, competitiveness, and job 
creation, CEQ is using the NEPA Pilot Program to review its NEPA 
Regulations. We are actively engaging with Federal agencies and the 
general public as part of this retrospective review process.
    The CEQ NEPA Regulations establish guidelines Federal agencies must 
follow to ensure that their NEPA implementing procedures are consistent 
with NEPA's policy objectives and procedural requirements. CEQ's goal 
is to improve effectiveness and efficiency of the NEPA process by 
identifying and selecting projects that underscore the President's 
goals for improved public participation, greater integration and 
innovation, flexible approaches and sound science in our regulations. 
Eventually, successful pilots could lead to the adoption of new or 
revised NEPA procedures and could identify which of CEQ's NEPA 
Regulations would benefit from revision. Under this process, CEQ is 
working to identify innovative approaches that reduce the time and 
costs required for effective implementation of its NEPA Regulations. 
These innovative approaches promote faster and more effective Federal 
decisions on projects that create jobs, grow the economy, and protect 
the health and environment of communities.
  2) Enhancing Federal Government Sustainability
    The Federal Government is the largest consumer of energy in the 
U.S. economy. Preliminary data shows that the Federal Government spent 
more than $20 billion on electricity and fuel in 2010. It owns nearly 
500,000 buildings, operates more than 600,000 vehicles, and purchases 
more than $500 billion per year in goods and services. The Federal 
Government's size and scale make improving its own practices an 
effective policy tool to move the country toward greater 
sustainability.
    On October 5, 2009, the President signed an Executive Order (EO) 
that sets sustainability performance goals for Federal agencies and 
calls for reduction of greenhouse gas emissions from Federal 
activities. More specifically, the EO required Federal agencies to set 
a 2020 greenhouse gas emissions reduction target; increase energy 
efficiency; reduce fleet petroleum consumption; conserve water; reduce 
waste; support sustainable communities; and leverage Federal purchasing 
power to promote environmentally-responsible products and technologies. 
CEQ is responsible for assessing Federal agency progress towards the 
goals of the EO and for identifying tools and strategies to assist 
Federal implementation efforts.
    Under the EO, each Federal agency was required to submit its 2020 
greenhouse gas pollution reduction target to CEQ and OMB so that the 
Federal Government could develop an overall greenhouse gas reduction 
goal. On January 29, 2010, the President announced that the Federal 
Government would reduce its direct emissions of greenhouse gas 
pollution by 28 percent from 2008 levels by 2020. Assuming current 
energy prices, achieving this reduction target will save the American 
taxpayers a cumulative total of $8 to $11 billion in avoided energy 
costs through 2020.
    In April 2011, CEQ released the first-ever comprehensive GHG 
emissions inventory for the Federal Government. Based on that 
inventory, the Federal Government reduced direct GHG emissions and GHG 
emissions associated with electricity and other offsite generated 
energy used by the Federal government (Scope 1 and 2) by 6.4 percent, 
from 52.5 million metric tons of carbon dioxide equivalent (MMTCO2e) to 
49.1 MMTCO2e, from a 2008 baseline.
    We are also on track for the Federal Government to meet the 
President's call to lead by example. In FY 2010, the Government 
purchased or produced renewable energy equivalent to 5.2% of total 
electricity use, reduced water consumption intensity by 10.4% relative 
to fiscal year 2007, and decreased energy intensity by 14.6% relative 
to fiscal year 2003. As an example of Government leading the way in 
renewable energy, the Department of the Navy is making one of the 
largest commitments to clean energy in history. As the President 
announced in his State of the Union Address, the Navy will purchase 1 
gigawatt of renewable energy, enough to power a quarter of a million 
homes a year.
    CEQ's Office of the Federal Environmental Executive will continue 
to work with agencies to ensure implementation of the Executive Order 
on Federal Leadership in Environmental, Energy, and Economic 
Performance and the Federal greenhouse gas emission reduction goal.
  3) Stewardship of the Ocean, our Coasts, and the Great Lakes
    America's ocean, coastal, and Great Lakes regions support over 66 
million jobs and contribute nearly $8 trillion to the national economy 
each year. In response to more than a decade of discussions, extensive 
public input, and calls for action from two bi-partisan Commissions, in 
July 2010, President Obama established the first comprehensive National 
Ocean Policy to improve the stewardship of the ocean, coasts, and Great 
Lakes, and a National Ocean Council to implement the Policy.
    As I stated before this Committee last October, the National Ocean 
Policy provides the framework for all Federal agencies to better work 
together to thoughtfully manage our nation's oceans, coasts, and Great 
Lakes and ensure they will be healthy and productive for current and 
future generations. The policy is proactive, looking to avoid conflict 
and delay, which is all too often the norm. It provides for better 
coordination and integration of the laws, policies, and regulations 
affecting the oceans, coasts, and Great lakes, and seeks to avoid the 
kinds of conflicts and controversies that often delay and sometimes 
derail ocean-related projects that support the economy and coastal 
communities. At its heart, this policy is about efficiency, reducing 
red tape, and making faster, more informed decisions.
    Since the National Ocean Policy was established, we are already 
seeing some progress:
        <bullet>  In January 2012, the National Ocean Council released 
        its Draft Implementation Plan identifying priority actions 
        under existing authorities that will provide the Nation with 
        clean water and improve public health; support emerging and 
        existing uses of the ocean, our coasts, and the Great Lakes--
        and the resources they provide--through basic research and more 
        efficient permitting; strengthen the resiliency of coastal 
        communities against climate change impacts; and deliver 
        observations and information that allow our Nation's businesses 
        to operate safely and efficiently off of our coasts. It 
        reflects ideas and input from States, local officials, tribal 
        governments, industry, recreational users, non-governmental 
        organizations, the public, and other stakeholders who provided 
        critical feedback to the National Ocean Council.
        <bullet>  The National Ocean Policy principles have helped 
        shape numerous other ocean-related work in the Arctic, the Gulf 
        Coast, and the Great Lakes. For example:
                <all>  In light of the Policy's adoption of ecosystem-
                based management, the U.S. is proposing an ecosystem-
                based management initiative under the Arctic Council, 
                which is now under way.
                <all>  The National Ocean Council and the Gulf of 
                Mexico Ecosystem Restoration Task Force are 
                coordinating efforts to ensure resources and efforts 
                are leveraged rather than duplicated with respect to 
                Gulf Coast restoration.
        <bullet>  In December 2011, the National Ocean Council launched 
        its data portal, ocean.data.gov, which is a one-stop source for 
        Federal ocean data, information, and tools to improve science-
        based decision-making and support all stakeholders engaged in 
        mapping and planning for the future uses of the ocean, our 
        coasts, and the Great Lakes. Ocean.data.gov brings Federal data 
        to the public in an open and transparent manner. Data sources 
        for Ocean.data.gov will be provided by NOAA, the Navy, DOI, 
        EPA, NASA, Army Corps of Engineers, DOE, the National Science 
        Foundation, and other Federal agencies, and will make 
        accessible valuable long-term datasets on oceanographic 
        conditions and natural resources.
        <bullet>  A key aspect in the development and implementation of 
        the National Ocean Policy has been extensive public engagement 
        and transparency. For example, over the past year, the National 
        Ocean Council brought together Federal, State, tribal, and 
        local government representatives, members of the public, and 
        other stakeholders from across the country for twelve regional 
        public listening sessions on the draft Implementation Plan 
        outlines, face-to-face meetings, and a National Coastal and 
        Marine Spatial Planning Workshop, in addition to public comment 
        periods, to discuss how implementation of the National Ocean 
        Policy can grow and protect jobs, secure energy independence, 
        enhance recreational activities, and maximize uses of our 
        Nation's waters while ensuring their conservation.
        <bullet>  The National Ocean Council also established a 
        Governance Coordinating Committee, comprising officials from 
        states, Federally-recognized tribes, and local governments. The 
        Governance Coordinating Committee works with the National Ocean 
        Council on ocean policy issues that cut across political, 
        geographic, and other boundaries. The Governance Coordinating 
        Committee provides a critical link to and strengthens the lines 
        of communication with State, tribal, and local governments on 
        ocean, coastal, and Great Lakes issues.
    We are also seeing better collaboration and use of resources across 
the Federal Government as a result of the Policy. For example, the 
National Ocean Policy has strengthened interagency collaboration on 
regional, ocean, and coastal restoration efforts in the Gulf Coast 
through the Gulf Coast Restoration Task Force and the Great Lakes 
through the Great Lakes Restoration Initiative.
  4) Protecting and Restoring America's Ecosystems
    On April 16, 2010, President Obama launched the America's Great 
Outdoors Initiative, calling upon the Secretaries of the Departments of 
the Interior and Agriculture, the Administrator of the Environmental 
Protection Agency, and the Chair of the White House Council on 
Environmental Quality to develop a 21st-century conservation agenda 
that would seek to protect America's natural and cultural resources, 
and connect people to the great outdoors through jobs, education, 
recreation, and service. The President asked Federal agencies to listen 
to and learn from the American people resulting in what became one of 
the largest public engagement efforts around conservation in our 
Nation's history.
    The Administration has spent the last two years implementing the 
shared vision of the America's Great Outdoors initiative (AGO), and a 
few select accomplishments include--
        <bullet>  Expanding Recreational Access to Public Lands--The 
        Administration established a Federal Interagency Council on 
        Outdoor Recreation that is improving recreational access to 
        public lands, waters, and shores in partnership with Federal, 
        State, and tribal agencies.
        <bullet>  Connecting Communities with the Outdoors in All Fifty 
        States--As outlined in the America's Great Outdoors 50-State 
        Report released in November 2011, DOI is working with other 
        Federal agencies, States, and communities on more than 100 
        projects across all fifty States to improve park accessibility, 
        create urban green spaces, restore rivers, and protect special 
        places.
        <bullet>  Hunting and Fishing Access--In the last two years, 
        USDA helped support 25 State public access programs, which will 
        open an estimated 2.4 million acres for hunting, fishing, and 
        other outdoor recreational opportunities on privately-owned 
        land. USDA provided almost $23 million in grants in FYs 2010 
        and 2011 through the Voluntary Public Access and Habitat 
        Incentive Program.
    CEQ will continue its work in the coming year with its Federal 
agency partners and the general public on the AGO initiative.
    The Obama Administration has given priority attention to targeted 
ecosystem restoration efforts. Through collaboration with State, local, 
tribal, nonprofit, and private stakeholders, we are achieving tangible 
improvements in water quality, species recovery, habitat restoration, 
and invasive species management with focused work in key ecosystems. 
Success and advancement could not happen without interagency 
coordination, because any one agency alone cannot address all of the 
issues these complex ecosystems are confronting. CEQ helps to 
coordinate and facilitate interagency work to restore America's 
ecosystems, as illustrated by the following examples--
        <bullet>  Chesapeake Bay--In May 2009, President Obama signed 
        Executive Order 13508, calling on the Federal Government to 
        lead a renewed effort to restore and protect the Nation's 
        largest estuary and its watershed. This effort is widely 
        regarded as essential and the most comprehensive plan yet to 
        save this critical ecosystem.
        <bullet>  Everglades--The Administration has invested more than 
        $756 million in Federal construction funding from DOI and the 
        Army Corps from 2009 to 2012 to jump-start projects that are 
        restoring freshwater flows to the Everglades. Everglades 
        restoration projects now under way have generated over 6,600 
        direct construction jobs and will generate thousands more.
        <bullet>  Gulf Coast--President Obama established the Gulf 
        Coast Ecosystem Restoration Task Force to restore ecosystems 
        from the damage of the Deepwater Horizon Oil Spill and to 
        reverse long-standing ecological decline through coordinated 
        actions. The Task Force released the Gulf of Mexico Regional 
        Ecosystem Restoration Strategy in December 2011, and work is 
        progressing to implement the strategy.
        <bullet>  Great Lakes and Asian Carp--The Obama Administration 
        has made the most significant investment in decades in 
        restoration of the Great Lakes, the world's largest surface 
        freshwater system. Through a coordinated interagency process 
        led by the EPA, implementation of the Great Lakes Restoration 
        Initiative (GLRI) is helping to restore the Great Lakes 
        ecosystem, and ultimately improve the health and environment of 
        the area's 30 million Americans. Further, GLRI has been central 
        to the Administration's coordinated effort to prevent invasive 
        Asian Carp from reaching the Great Lakes.
        <bullet>  California Bay-Delta--DOI, EPA, USDA, the Army Corps, 
        NOAA, and the State of California are working to elevate and 
        coordinate water issues in the California Bay-Delta.
  5) Promoting Clean Energy and Addressing Climate Change
    As the President outlined in his State of the Union, the 
Administration is focused on building an economy built to last. The 
President is committed to helping transition our economy to one that 
runs on clean energy while also preparing for the impacts of climate 
change. We at CEQ are doing our part to support job creation in clean 
energy and prepare for the effects of climate change.
Recovery Through Retrofit
    In 2009, the Vice President asked CEQ to develop proposals to 
expand green job opportunities and boost energy savings for the middle 
class. In October 2009, CEQ presented the Vice President with the 
``Recovery Through Retrofit'' report, the result of an interagency 
effort that was focused on ways to address barriers to and lay the 
groundwork for a self-sustaining home energy upgrade industry. The 
report focused on three particularly challenging areas--the lack of 
information available to consumers and businesses, the lack of 
financing options, and the lack of skilled workers--and suggested ways 
for the Federal Government to begin to break down these barriers. Since 
release of the report, CEQ has led ongoing implementation efforts 
across Departments and agencies, including:
        <bullet>  DOE's Home Energy Score, a new voluntary program that 
        is helping homeowners make cost-effective decisions about 
        energy improvements;
        <bullet>  A pilot program for the Federal Housing 
        Administration's PowerSaver loan product, to help consumers 
        finance energy-saving improvements;
        <bullet>  DOE's Guidelines for Home Energy Professionals, to 
        help foster a skilled and credentialed retrofit workforce, 
        including the development of standard work specifications for 
        upgrades and guidelines for effective training and 
        certification. To complement this effort, EPA has worked with 
        DOE to release a set of Healthy Indoor Protocols for Home 
        Energy Upgrades, which provide a set of best practices for 
        improving indoor air quality in conjunction with energy upgrade 
        work in homes; and
        <bullet>  USDA has launched the Rural Economic Development 
        Energy Efficiency Effort (REDEEE), to improve access to home 
        energy efficiency improvements in rural America by working with 
        electric cooperatives.
Better Buildings Initiative
    In February 2011, the President announced the Better Buildings 
Initiative, which aims to improve energy efficiency in commercial 
buildings by 20 percent by 2020 through a series of administrative 
actions, a challenge to the private sector, and legislative proposals. 
The Administration also announced a MOU between DOE and the Appraisal 
Foundation to establish standards and guidelines to industry 
practitioners for factoring energy performance into buildings 
appraisals, as well as a new competitive grant program for technical 
and community colleges to create training programs for building energy 
management. This past year, the President announced the formal rollout 
of the Better Buildings Challenge--a public-private partnership that by 
December 2011 included new private and local public sector commitments 
totaling more than 1.6 billion square feet, 300 manufacturing plants, 
and nearly $2 billion in financing support for building energy 
upgrades. In addition, the President issued a Memorandum directing 
agencies to enter into a combined minimum of $2 billion in performance-
based contracts over the next two years to retrofit Federal buildings. 
These contracts represent an approach to financing retrofits that uses 
long term-energy savings to pay for up-front costs, resulting in no net 
cost to the American taxpayer.
    CEQ's work over the past year has also included three specific 
energy and climate initiatives: transmission on public lands, Federal 
Government adaptation to climate change, and developing new Federal-
state collaboration on Great Lakes wind energy.
Transmission on Public Lands
    The Administration is committed to increasing the amount of clean 
energy produced and transmitted across the country. To further this 
commitment and avoid duplicative work by a number of agencies, CEQ 
facilitated the development of a Memorandum of Understanding (MOU) 
signed by nine Federal agencies that will expedite the siting and 
construction of transmission facilities in the U.S. The MOU, which was 
announced by the President on October 27, 2009, reduces duplication of 
effort across the federal Government and reduces the time and barriers 
to site new transmission lines on Federal lands.
    CEQ is now working to ensure that the MOU is implemented on the 
ground through the interagency Rapid Response Team for Transmission 
(RRTT), which was briefly mentioned above. The RRTT is focusing 
initially on seven pilot project transmission lines which, when built, 
will help increase electric reliability and integrate new renewable 
energy into the grid. These seven transmission pilot projects are 
estimated to create thousands of construction and operation jobs.
Climate Change Adaptation Task Force
    The Obama Administration is taking action to address the risks to 
our economy, water and food supply, national security, infrastructure, 
public health, and natural resources posed by the impacts of climate 
change. In 2009, by Executive Order, the Obama Administration convened 
the Interagency Climate Change Adaptation Task Force, co-chaired by 
CEQ, the Office of Science and Technology Policy (OSTP), and NOAA, and 
including representatives from more than 20 Federal agencies. Building 
on the expertise and resources of these agencies, the Task Force has 
been working to expand and strengthen the Nation's capacity to better 
understand, prepare for, and respond to extreme events and other 
climate change impacts.
    Under the auspices of the Task Force, this year Federal agencies 
have taken steps to identify and address vulnerabilities across all 
sectors, providing scientific analyses and decision support in sectors, 
and development of three sector-specific adaptation strategies designed 
to ensure coordinated action to safeguard the nation's critical natural 
resources, particularly freshwater, oceans and coasts, and fish, 
wildlife, and plants.
    As part of this effort, CEQ worked with DOI and NOAA to provide 
Congress with the fish, wildlife, and plants adaptation report called 
for the FY 2010 Interior Appropriations Conference report language.
Fiscal Year 2013 Budget Request for CEQ
    Mr. Chairman, Ranking Member Markey, as you know, the 
Administration has requested $3.1 million for CEQ for fiscal year 2013. 
This funding level includes a reduction of $42,000 or 1.3 percent of 
last year's enacted level.
    Now in its 42nd year, NEPA has a proven record of protecting public 
health, safety, and environmental quality by ensuring transparency, 
accountability, and public involvement in Federal actions and in the 
use of public funds. As environmental issues grow more complex, CEQ 
strives to provide the agencies a consultative resource and an 
institutional base of NEPA knowledge by assisting them to formulate, 
revise, and update their NEPA procedures on a regular basis. 
Maintaining this funding level is essential for CEQ to continue its 
mission of helping Federal agencies navigate environmental conflicts, 
find sustainable solutions, promote transparency, and ease NEPA 
implementation. In FY 13, we will continue our work to improve NEPA 
implementation, increase interagency coordination through the National 
Ocean Policy and America's Great Outdoors Initiative, and maximize 
efficiencies within the Federal Government to ensure that Federal 
regulations continue to protect the air we breathe and the water we 
drink in a commonsense and cost effective manner.
    Mr. Chairman, Ranking Member, and all members of the Committee, I 
am proud of what the Council on Environmental Quality has accomplished 
over the past three years and with your support, and am looking forward 
to what the Council will achieve this year. I appreciate the 
opportunity to testify this morning and look forward to answering your 
questions.
                                 ______
                                 
    The Chairman. Thank you very much, Chairwoman Sutley. I 
appreciate your testimony. We will start the questioning, and I 
will start first.
    Let me--as I alluded to in my opening statement, at least 
the focus that I wanted to focus on is the National Ocean 
Policy. And at the October 26th hearing, I asked about the lack 
of public input and transparency in developing that National 
Ocean Policy, and the activities of the regional zoning 
bodies--and I included by asking why the regional zoning bodies 
are exempt from the Federal Advisory Committee Act, or FACA. 
But I really didn't get a clear answer on that.
    And so, let me ask a question again. Will these regional 
zoning bodies be complying with the Federal Advisory Committee 
Act, including holding public hearings? And if not, why not?
    Ms. Sutley. Well, thank you, Mr. Chairman, and I appreciate 
the opportunity to be here, and also your continuing interest 
in the National Ocean Policy.
    The regional planning bodies will be comprised of 
governmental members, and therefore, not directly subject to 
the Federal Advisory Committee Act. But the commitment that we 
have made is to full, open, and transparent process for those 
regional planning bodies, so that we have the opportunity and--
we provide the opportunity and are seeking the input of all the 
interested stakeholders, as we move forward on this policy.
    I think it is our view that the benefit of doing this kind 
of up-front engagement, both for the coastal--the governments 
in the coastal area, but also including the public and the 
stakeholders, it will help to enhance the value of these 
planning bodies.
    The Chairman. I am not sure I still got the answer to that, 
but let me go on to--maybe we should pursue that based on what 
you said. Maybe I will have a follow-up precisely on that.
    Let me go to another area. In the past, when we were 
talking about the National Ocean Policy, or you know, I guess 
the leadership, they were reluctant to admit that this policy 
and the implementation of that would affect activities on the 
land. Yet the draft Implementation Plan makes it clear that 
this will affect land activities.
    In fact, there is a new section that is titled--and I 
quote--``Water Quality and Sustainable Practices on Land.'' 
This section cites suburban run-off, agriculture, 
transportation, and industry ``even hundreds of miles away,'' 
affecting water quality. This section also states that 
successful implementation of the policy will require--and 
again, I quote--``the use of regulatory and non-regulatory 
measures to enhance water quality.''
    Now, that is a pretty clear statement, to me, that this 
National Ocean Policy intends to implement new regulations to 
restrict or alter on-land activities, like farming, to enhance 
ocean water quality. So, since this is in the draft plan, could 
you comment on this?
    Ms. Sutley. Certainly, Mr. Chairman. The policy recognized 
that there is a connection between activities on the land and 
in the ocean, and that--but that there has to be sort of a 
reason, basis for making that connection.
    So, the implementation plan, I think, just seeks to clarify 
that, that it is important, as we go forward in trying to deal 
with some of the things that are affecting water quality in our 
coastal areas, that there are circumstances in which you have 
to look at activities on the land, run-off being one of them. 
But----
    The Chairman. Why, then, if--I mean if that is the case--
you said hundreds of miles, yet representation on these boards 
are not made up of people that represent those areas inland? 
Why is that not the case?
    Ms. Sutley. Well, let me just say that the idea is not to 
add new regulatory requirements, but try to focus those 
existing requirements where agencies need to sort of really 
focus on them, as we were looking at activities on the land 
that may affect the health of the oceans. So we are not adding 
new activities.
    In addition----
    The Chairman. Well, since my time is running out, there was 
a statement in your draft that says--and I quote--``The 
policy''--and I quote--``The use of regulatory and non-
regulatory measures to enhance water quality.'' That certainly 
sounds to me like some regulatory activity.
    Ms. Sutley. Well, there is currently regulatory activity 
and non-regulatory activity that is trying to reduce pollution 
in our waters.
    The Chairman. I recognize all of that. I am talking about 
specifically the National Ocean Policy, which would be, 
according to the draft, another layer of regulations.
    Ms. Sutley. Well, it is not intended to impose another 
layer of regulations. It is really intended to try to focus the 
attention of the agencies as they are doing their jobs to focus 
on the impacts of water quality in the--on the health of the 
oceans.
    The Chairman. I am way over time on this. I thank you. I am 
sure we will have more conversation.
    Mr. Markey is recognized.
    Mr. Markey. Thank you, Mr. Chairman.
    Ms. Sutley, the goal of the National Ocean Policy is to 
coordinate actions that impact our coasts and people and 
businesses utilizing these resources. Massachusetts has been at 
the forefront of developing marine spatial planning to provide 
coherence to activities off of its coast.
    We can now put a dollar amount on how successful that 
effort has been. This week, a study publish in the proceedings 
of the National Academy of Sciences was released, demonstrating 
that economic benefits of regional ocean planning, by bringing 
fishermen and offshore wind developers together, this study 
shows that using marine spatial planning over conventional 
practices could prevent over $1 million in losses to fisheries 
and whale-watching industries, while generating over $10 
billion in extra value to the energy sector.
    Rather than the negative impacts my Republican colleagues 
fear, isn't the purpose of the National Ocean Policy to achieve 
similar benefits to what Massachusetts has already experienced, 
but spread it across America's oceans and the Great Lakes?
    Ms. Sutley. Well, thank you for the question. We believe 
the answer to that is yes, that I think building on the 
experience that States like Massachusetts has had, in terms of 
the up-front engagement about bringing in all the stakeholders, 
bringing in all the parts of the government that have some 
responsibility over the stewardship of our ocean and marine 
resources, that in bringing all of those together, we can use 
the best available science, get everybody involved in the 
discussion up front, and reduce the potential for conflict that 
can negatively affect economic activity in the ocean.
    Mr. Markey. Well, the National Environmental Policy Act 
process provides a way to solicit stakeholder input on Federal 
actions and improve decisions that the government makes. In 
spite of this, the Republican Majority has passed legislation 
out of this committee, H.R. 2170, that would restrict NEPA to 
only allow consideration of the proposed project, or no action 
for renewable energy projects. It would not allow for any 
middle ground solutions.
    Given that 96 percent of Recovery Act renewable energy 
projects were authorized under NEPA's categorical exclusions, 
this legislation seems like an answer in search of a problem.
    A, if this legislation were enacted, couldn't it actually 
significantly harm renewable energy development by forcing the 
BLM to select the ``no action'' alternative for many decisions, 
because other alternatives or mitigation measures could not be 
considered under NEPA?
    Ms. Sutley. Thank you. We think that the way that NEPA 
currently handles things like looking at a range of 
alternatives actually helps to lead to better decision-making. 
And I think it also--I mean the purpose of NEPA is to engage 
the public, inform the public about decisions that the Federal 
Government is making, and for those agencies to describe the 
potential impacts on the environment. And I think that that 
helps to get a better set of decisions in front of decision-
makers.
    So, we think that the system actually works pretty well. 
And on the renewable energy side, we have been working closely 
with many agencies who have jurisdiction over renewable energy 
projects. And again, we find that up front engagement and 
collaboration and full consideration of alternatives leads to 
better decisions.
    Mr. Markey. OK. Let me ask you this. Let me ask you a few 
hypothetical questions. If you owned property that was flooded 
year after year, would you take actions to protect it?
    Ms. Sutley. Yes.
    Mr. Markey. If you knew the risk of fire damage to your 
property was increasing, would you take measures to protect 
it----
    Ms. Sutley. Yes.
    Mr. Markey [continuing]. Against fires? If you knew your 
supply of drinking water was threatened, would you find ways to 
better manage it?
    Ms. Sutley. Yes.
    Mr. Markey. Well, since we know sea level is rising, 
extreme rainfall is increasing, the wildfire season is 
expanding, and snowpack across much of the West is declining, 
shouldn't the Federal Government prepare for these impacts, as 
good stewards of Federal lands and taxpayers' dollars?
    Ms. Sutley. Yes. We believe that it is important to--in how 
we manage risks, and that in looking at the risks associated 
with climate change, and the potential impacts on not only on 
Federal activities, but as Federal activities affect all 
Americans, affect state and local government, affect our 
economic activity, that it is prudent to consider how we manage 
these risks, how we reduce vulnerability, and increase 
resiliency.
    Mr. Markey. So--and that is the goal of the Interagency 
Climate Adaptation Task Force, is it not?
    Ms. Sutley. Yes, it is.
    Mr. Markey. Thank you. I thank you, Mr. Chairman.
    The Chairman. The time of the gentleman is expired. Dr. 
Fleming is recognized.
    Dr. Fleming. Thank you, Mr. Chairman. Chair Sutley, I am 
very impressed with the credentials that you present on your 
bio: a master's from Harvard, a degree from Cornell, worked in 
the EPA and in other areas of administration. But have you, 
ma'am, ever owned or run a small business?
    Ms. Sutley. No, sir.
    Dr. Fleming. Ever made a small business payroll?
    Ms. Sutley. No.
    Dr. Fleming. You have some colleagues here today. Have any 
of them ever owned, managed, or made a small business payroll?
    Ms. Sutley. I don't know the answer to that.
    Dr. Fleming. OK. Well, you know, I heard you talk about the 
impact on business and the economy. And I can tell you that one 
of the biggest complaints I get from my district, the Fourth 
District of Louisiana, is that all of these agencies, 
environmental committees, what have you, councils, seem not to 
understand the impact of regulations upon our cost, upon our 
employees and their lives.
    And, in fact, I would like to refer back, just to lay the 
foundation of the question I am going to ask you. Very 
recently, when asked in committee, the Appropriations 
Subcommittee, Secretary of Energy Steven Chu--the question was, 
``If the overall goal is to get our gasoline''--``Is the 
overall goal''--no, I am sorry. ``If the overall goal is to get 
our gasoline price lower''--or, I apologize, there is a 
misprint here. ``Is the overall goal to get our gasoline price 
lower?'' And his reply was no. And he added that the overall 
goal is to decrease our dependency on oil.
    And that goes back to a previous statement that he made in 
which he said, ``Somehow we have to figure out how to boost the 
price of gasoline to the levels in Europe.''
    And we have had other comments. The President himself said, 
under his cap and trade plan, that electricity prices would 
necessarily skyrocket. Interior Secretary Salazar made 
statements to the effect that $10 a gallon gasoline would be 
acceptable. This is very worrisome for my district, my 
constituents, when it comes to jobs and the gasoline prices 
that, as you know, are skyrocketing.
    What I want to do is take you to the Outer Continental 
Shelf Lands Act, section 3, subsection 3. ``It is hereby 
declared to be the policy of the United States that the Outer 
Continental Shelf is a vital national resource reserve held by 
the Federal Government for the public, which should be made 
available for expeditious and orderly development, subject to 
the environmental safeguards in a manner which is consistent 
with the maintenance of competition and the other national 
needs.''
    How can a major new process that we are talking about 
today--and, more specifically, coastal and marine spatial 
planning--be consistent with the expeditious and orderly 
development directive set up under OCSLA?
    Ms. Sutley. Well, thank you, sir. I think we all--and the 
President is very aware of the impact that rising gas prices 
have on American families. And we are all working very hard on 
the President's all-of-the-above energy strategy, to make sure 
that we are doing everything we can on behalf of the American 
people.
    The specific question on the Outer Continental Shelf Lands 
Act and marine spatial planning, I would make a couple of 
points.
    One is the latest program from the Department of the 
Interior is 75 percent of the recoverable--the known resources 
are open to export--are open to development. Our view is that 
we believe that the marine spatial planning will help to 
expedite consideration of any uses of the ocean by getting----
    Dr. Fleming. Well, I don't doubt that you believe that, 
ma'am. But there is absolutely no evidence to support that. I 
will remind you that all of these offshore areas were opened 
after--as President Bush left office, because prices were high 
before. President Obama actually came back and closed most of 
them down. And then, of course, after the Macondo incident we 
had all sorts of problems, which led to delays, and we are 
still trying to recover from that.
    So, from my perspective, and from my constituents' 
perspective, that spatial planning is only adding another layer 
of bureaucracy to the process, slowing down the production of 
oil, increasing the prices of gasoline at the pump, and killing 
Louisiana jobs.
    And so, as I say, I think from your perspective, coming 
from the EPA, coming from the Administration, where these don't 
directly impact you--but I would suggest to you that those who 
own small businesses, those who make payrolls, those who have 
to fill their cars with gasoline, and their trucks, and their 
business with fuel, that all they are seeing is just a lot of 
talk coming from Washington, but no action.
    And again, the Strategic Oil Reserve, tapping that is about 
the only thing that has been suggested by this Administration 
when, in fact, gasoline prices are going up a cent per day.
    I am sorry, I guess I am out of time, Mr. Chairman. But 
that is the way Louisiana feels about this.
    The Chairman. Yes, the time of the gentleman has expired. 
The gentleman from Michigan, Mr. Kildee, is recognized.
    Mr. Kildee. Thank you, Mr. Chairman. Madam Chair, my 
district borders on the Great Lakes, specifically Lake Huron. 
How many agencies are involved in our efforts to control the 
Asian Carp, which is threatening to invade Great Lakes? Can you 
give some examples of the cooperation among the various 
agencies in trying to keep them from that invasion?
    The Great Lakes are the largest body of fresh water in the 
world, although Lake Baikal might claim that, too, in the 
Russian Federation. But what type of cooperation are the 
various agencies doing to try to prevent that disastrous 
invasion?
    Ms. Sutley. Well, thank you. Preventing the Asian Carp from 
establishing themselves in the Great Lakes is a high priority 
for the Administration. And CEQ chairs the Asian Carp Response 
Committee that is made up of a number of Federal agencies, as 
well as the Great Lakes states, to really focus on all of the 
things that we can do right now to prevent the spread of Asian 
Carp into the Great Lakes.
    We put a significant amount of money into both physical 
barriers and--as well as fishing and just trying--and the 
research and development and monitoring, so that we can fight 
this potential spread as we are developing a long-term 
solution.
    So, I think we have had a very good interagency and 
intergovernmental work plan over the last three years, 
agencies, again, putting a lot of time and effort into both the 
actions right now to prevent the spread of Asian Carp, as well 
as developing a long-term solution to keep them out 
permanently.
    Mr. Kildee. How serious is there discussion on closing the 
canals, the artificial canals, that were done at the beginning 
of this past century for shipping? Any serious discussion of 
closing those? Because there is no natural way those fish could 
get into the Great Lakes, except through the--those canals that 
are man-made.
    Ms. Sutley. Well, there--we have been looking at all the 
possible solutions, and all the possible avenues where the 
Great Lakes--where the carp could enter the Great Lakes. So 
there is both a short-term dimension of this, the trying to 
manage under the current system, through the use of barriers 
and other techniques to keep the carp out right now, as well as 
investing in research. The biological research will help us 
understand how the carp move and how they behave, as well as 
developing the long-term solution.
    So, we are constantly evaluating what the best techniques 
are to keep the carp out of the Great Lakes. The Army Corps of 
Engineers, at Congress's direction, is working on a study that 
looks at the connection between the Great Lakes system and the 
Mississippi River system, and what ways--what are the pathways 
that we need to pay attention to, and in developing the long-
term solution to keep the carp out of the lakes.
    Mr. Kildee. I really appreciate the work you are doing. I 
encourage you to do it with all deliberate speed, and--because 
the danger is very, very imminent.
    Ms. Sutley. We agree, and we appreciate the support from 
Congress, and know that this is a priority for the 
Administration, to make sure that we are working closely with 
the Great Lakes states, in trying to keep the carp out of the 
lakes.
    Mr. Kildee. Thank you, Madam Chair.
    The Chairman. The gentleman yield back?
    Mr. Kildee. I yield back.
    The Chairman. The gentleman yields back his time. Mr. 
Southerland from Florida is recognized.
    Mr. Southerland. Ms. Sutley, thank you very much for being 
here today. I know that last time you were here we had a 
spirited discussion on something that you alluded to just again 
a few moments ago, that the idea here is no new regulations. I 
am sure you recall----
    Ms. Sutley. Yes.
    Mr. Southerland [continuing]. That exchange. I am amazed 
that you continue to say that it does not--that the idea is not 
for new regulations. But yet, I mean, the very statement from 
the White House is very clear, in that it will lead to new 
regulations.
    I mean I am struggling with that. I have some other 
questions that I want to ask you, obviously, but you stated it 
again today. I mean is it still your opinion that the White 
House is incorrect, and that you are right?
    Ms. Sutley. Well, I--as we discussed at the last hearing, 
the intention is not to have--it is not to have new 
regulations, that really, what we are trying to do is make----
    Mr. Southerland. Well, then why would the President sign an 
executive order that clearly lays the path for new regulations?
    Ms. Sutley. Well, what the executive order and what the 
policy does is to say that we should not only work within the 
existing regulations, try to make more sense of the more than 
100 laws, policies, and regulations that affect Federal 
agencies as they manage coastal and marine resources, but 
that--to look at our current policy and program, and see if 
there are ways that we can streamline that.
    So, I don't think that I would think this is a success, if 
we ended up with new regulations. I think it would be a success 
if we end up streamlining the way that the Federal Government 
manages the coastal and ocean resources.
    Mr. Southerland. The--one question I would like to add, or 
comment. I know that the Ranking Member made reference to wind 
disasters and fire disasters and flood disasters, and you 
answered his question that you think it would--you would take 
prudent steps to protect your well-being in his example.
    I mean I--I mean we are clearly in a financial disaster. I 
would assume that you would also believe that it is prudent to 
take necessary steps to protect our well-being in light of this 
current financial disaster that we find ourselves in. Would you 
not?
    Ms. Sutley. Yes.
    Mr. Southerland. That is fair. We had a gentleman here 
yesterday who stated on the record that he thought that the 
President's budget--that he--the fourth consecutive trillion-
dollar deficit budget that he has presented to Congress, and 
the $5 trillion of new debt that has been added onto the backs 
of the hard-working men and women of this country was, in his 
words, ``responsible.''
    I am just curious, because you are in a high position. I 
mean do you think that continuing to spend money that we do not 
have, borrowing $.50 of every dollar, is a prudent step to 
protect our financial well-being?
    Ms. Sutley. Well, I think the President presented a budget 
that does--that will meet the caps that Congress agreed to, and 
will reduce the deficit. For our part at CEQ, we--our Fiscal 
Year 2013 proposal does include a reduction. So the President 
has made the commitment for the Federal Government to live 
within its means.
    Mr. Southerland. Well, that is rather humorous, the Federal 
Government living within its means.
    Let me ask you this regarding the specificity of the 
National Ocean Policy, regarding your budget. Would you provide 
for this committee a cross-cutting budget for the oceans policy 
going forward, so we can get an idea of----
    Ms. Sutley. We are happy to follow up with that.
    Mr. Southerland. OK, OK. And my next line of questions 
would go well beyond my time remaining. So, Mr. Chair, I yield 
back.
    The Chairman. The gentleman yields back his time. The 
gentleman from California, Mr. Costa, is recognized.
    Mr. Costa. Thank you very much, Mr. Chairman. I would like 
to ask Ms. Sutley on the President's National Ocean Policy, 
specifically dealing with coastal and spatial planning efforts, 
and my concern is its potential impacts on future oil and gas 
supplies.
    Many of us are concerned that the marine spatial planning 
goes forward without having the up-to-date data necessary, and 
the potential impact it could have, long term, on those 
resources that we need for domestic production. And the--I mean 
the spatial planning efforts that I have been familiar with I 
think are logical and, over the long term, probably are 
necessary. But the likely impact on the limitations of the plan 
I think remain forever locked up if we don't update the plan.
    For example, planning outside the Gulf of Mexico in areas 
of--that we are currently utilizing, the data that we have is 
actually about 30 years old, I am told. If we are relying upon 
data that old, nobody would be investing much in the way of 
those natural resources. As an example, in the Gulf of Mexico, 
we have already seen five times as much oil, and six times as 
much natural gas as what we originally determined was there 30 
years ago on that old data.
    So, what assurances could you give us that the National 
Ocean Council is dedicated to gathering newer, more accurate 
information for OCS planning purposes, and the seismic survey 
work that must be done before decisions should be made, in my 
view, concerning what areas are appropriate for oil, gas, and 
other energy development?
    Ms. Sutley. Well, thank you, Mr. Costa. The----
    Mr. Costa. You understand what I am saying, putting the 
cart before the horse?
    Ms. Sutley. I understand. The----
    Mr. Costa. That is an old farm term.
    Ms. Sutley. The National Ocean Policy is clear that we need 
to rely on the best available science in making decisions.
    Mr. Costa. But when some of that science is very old, that 
is not a good thing, I don't think.
    Ms. Sutley. Well, and part of the purpose of bringing the 
agencies together is to share data, and to make sure that 
agencies are taking advantage of the scientific knowledge that 
there is around the government----
    Mr. Costa. OK. Well, I want to move the questioning along 
to another line. But could you provide the Committee and the 
rest of the Members of what attempts CEQ is doing to update the 
new available science and data, as a precursor for doing this 
planning?
    Ms. Sutley. Excuse me.
    Mr. Costa. After you get done coughing. So just say yes, 
and we will move on to the next questioning.
    [Laughter.]
    Mr. Costa. Let's bring it back home to California. As you 
know, I have been involved for years in trying to ensure that 
the entire State has adequate water supply. And 2009 and 2010 
was awful, it was horrific, and ground zero was in my 
congressional district, in terms of the shortages of available 
water to the farmers, to the farm communities, and the farm 
workers that were devastated by both a hydrological and, in my 
view, regulatory-caused drought that made it far more difficult 
than it should have been.
    Under the category of lessons learned in 2009 and 2010, 
what are we doing? Because last year we had a great year, 174 
percent of snow pack. But at this year we are at 22 percent, 
and it ain't looking very good.
    So, what concrete steps will the Council on Environmental 
Quality be taking in California's ongoing water challenges, and 
how does the President's budget in the Fiscal Year 2013 help 
that effort?
    Ms. Sutley. Well, thank you. It was a very important 
subject, and a high priority for the Administration, to ensure 
that we are both ensuring the health of the Bay Delta 
ecosystem, and ensuring that there are adequate water supplies. 
Pardon me.
    Mr. Costa. No, I understand. But we know that you are 
restating facts.
    Ms. Sutley. Yes.
    Mr. Costa. Those are two equal goals.
    Ms. Sutley. Yes.
    Mr. Costa. And I am concerned about both goals being 
coequal. So, on the latter part, in terms of assuring during 
lower snowpack, how are we going to make sure that we get more 
than 30 percent allocation?
    Ms. Sutley. Well, and----
    Mr. Costa. Which is what has been projected last--two weeks 
ago.
    Ms. Sutley. Thanks. The--excuse me. The Department of the 
Interior is taking the lessons learned from the very dry years 
that we faced, in terms of both better communication and better 
engagement with the water contractors in--and the reclamation 
commissioner has been spending a lot of time in California, 
working----
    Mr. Costa. Yes.
    Ms. Sutley [continuing]. With the State. And I think the 
most important thing is that we continue the very strong 
cooperation with the State of California, to manage both the 
water resources now, and continue to work on developing the 
long-term solution to ensure that California has adequate water 
supply.
    Mr. Costa. All right. Well, my time has expired. And as you 
catch your breath, I would appreciate--I am in contact with all 
of your folks on a weekly basis, so--but I would like some 
assurances from you that your--that the White House is 
following up on this, and that we are not going to repeat some 
of the same mistakes we made in 2009 and 2010 that exacerbated 
the regulatory aspects of the deficient water supply that could 
have been done in a much more fair fashion, in my view. So----
    Ms. Sutley. Yes----
    The Chairman. The time of the gentleman has expired.
    Mr. Costa. Yes. So we will have that conversation. Thank 
you.
    Ms. Sutley. Thank you.
    The Chairman. The gentleman from Pennsylvania, Mr. 
Thompson, is recognized.
    Mr. Thompson. Thank you, Mr. Chairman. Ms. Sutley, thanks 
for your testimony. Ms. Sutley, in your testimony you mentioned 
the President's executive order on the Chesapeake Bay, 
representing Pennsylvania. And actually, on the Agriculture 
Committee I chair the Subcommittee on Conservation, Energy, 
Forestry, and jurisdiction over watershed. So it certainly 
caught my eye.
    You know, the TMDL is now in phase two, and we are still 
without an economic analysis. Now, this is a very serious issue 
that is already having extraordinary and devastating impacts on 
my home State of Pennsylvania, and throughout my congressional 
district.
    Now, the EPA has told me in writing that they expect the 
cost benefits analysis to be completed by the end of the year. 
But there is no firm deadline for completion. And, in fact, the 
EPA has also indicated to me that, in a quote from 
communications, ``The cost benefit analysis being conducted by 
EPA will not change the TMDLs'' outcomes or--in regard to 
outcomes or implementation. Frankly, in my opinion, prejudging 
the facts will be ignored.
    So, my first question is, why does this Administration 
continue to push through these enormously impactful 
regulations--and make no mistake that TMDL is a regulation--
without performing basic economic and social analysis of the 
impacts?
    Ms. Sutley. The President has committed us to enact 
regulations in a cost-effective and sensible way. It is 
reflected in his executive order on regulatory review. I can't 
speak to the specific circumstances with EPA, but I would be 
happy to look into it.
    Mr. Thompson. Well, you referenced in your testimony, 
though, specifically the executive order on Chesapeake Bay. And 
to show that we do have good bipartisanship, my friend from 
California, I think, was the one that talked about putting the 
cart before the horse. And it seems to me cost benefit analysis 
would be done before you drive out enormously impactful 
regulations. And so, you know, I really--I know what the 
President says, but I want to see that line up with the actions 
of the Administration.
    My follow-up question is why even do such an analysis if it 
has no impact on the regulations being forced on the States?
    Ms. Sutley. Well, the Chesapeake Bay is a very important 
watershed for the region and for the country. And the executive 
order was focused on trying to get the Federal agency working 
with the States to try to make some progress to addressing the 
health of the Chesapeake Bay, and that there--an emphasis on 
working with all of the--not only working with the States, but 
all the affected stakeholders in the region.
    And so, the--and EPA and other agencies working very 
closely--EPA working very closely with the Department of 
Agriculture in reaching out into the agricultural communities 
to try to find solutions that work for everyone.
    Mr. Thompson. Well, and I appreciate that. But when--you 
know, and I like being a team player, that has been important 
to me throughout my whole life, professionally and personally. 
But when I am coming together with a team, unless I am working 
with a group of carpenters, I don't bring a hammer. And that is 
what the Obama Administration has brought to this ``teamwork,'' 
to the States.
    And so, I mean, how do you justify the Obama Administration 
having no problem coming down hard with the hammer, but provide 
no funding to the public and to the States for this compliance, 
based on a cost benefit analysis that has not been completed 
yet, and that the EPA has acknowledged that--in communications 
that I have had with them in my respective Subcommittee 
chairmanship, that they are not even going to consider, in 
terms of the TMDLs?
    Ms. Sutley. Well, again, I think that, clearly, the health 
of the Chesapeake Bay depends on everyone working together.
    Mr. Thompson. Well, I would invite you up to the 
Pennsylvania Fifth District. You know, our agriculture 
community--our kids still swim in those streams.
    Local watersheds are important. And if the local watersheds 
are clean, you know, I can't account for much of what goes on 
into the Chesapeake Bay, hundreds of miles away. So we are not 
here talking about a commitment to a national treasure, which 
is what the Chesapeake Bay is, we are talking about a failed 
approach to policy that is based on a hammer, and really a 
total lack of--and I am running out of time, so one last 
question.
    Since the States have been egregiously hurt by this 
Administration's failure to conduct cost benefit analysis, or 
even worse, even worse, prejudging that they are not going to 
use the findings in the TMDLs, perhaps the States are better 
positioned to make honest environmental impact determinations. 
And as Chair of Environmental Quality, I would ask you your 
thoughts on that.
    Ms. Sutley. Well, as I said, I can't speak to the specifics 
with EPA, but I would be happy to follow up on you.
    But the States are obviously a very important part of how 
we are going to improve our environment. And it is important 
that we at CEQ and others work closely with the States on these 
important issues.
    Mr. Thompson. Right. And my time has expired, but I would 
also offer that I think the folks in the States probably care 
more about the environment of their respective States than what 
agencies in Washington do. So it is like let's let them have 
primacy.
    Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentlelady from Hawaii. Ms. Hanabusa is 
recognized.
    Ms. Hanabusa. Thank you, Mr. Chair. Chair Sutley, when you 
began your opening statement, you spoke about one of the goals 
of the CEQ is the improving of the efficiency and the 
effectiveness of the NEPA process. And in reviewing your 
testimony, what caught my eye is basically statements found at 
page three and four of your testimony, where you spoke, in 
particular, about the ability to fast-track. And in the 
situation of the ARA funding, how you basically expedited the 
NEPA process, whether that be through some sort of EA process, 
or EIS process.
    Can you explain to me exactly how this expedited--I think 
you call it permitted for infrastructure projects, how that is 
working, and how the pilot is actually functioning right now?
    Ms. Sutley. Well, thank you. We believe that there is both 
opportunity and real commitment to make progress, to make NEPA 
work better. It has been a real focus for CEQ in a number of 
areas. We have issued guidance since I became Chair to clarify 
for agencies where there are flexibilities in NEPA that they 
can take advantage of, and you reference the Recovery Act. We 
found that the vast, vast majority of Recovery Act projects 
completed their NEPA on time, and were able to deliver the 
projects on time.
    And so, we have been working in a number of different 
areas, through setting up with agencies, interagency rapid 
response teams to ensure that agencies are focused on high-
priority projects. The President issued a memorandum last 
August, directing agencies particularly to focus on high-
priority infrastructure projects, to track those, and to work 
on expediting the approvals of that.
    And just yesterday I signed some additional NEPA guidance, 
again to point out to agencies where there are opportunities 
for efficiencies in the NEPA process.
    Ms. Hanabusa. Now, one of the issues, as I recall, the 
ARRA, or what we call the stimulus legislation, was that the 
projects that were being, I guess, done by the state levels, 
because that is where the basic authority went, to the 
respective Governors--was the fact that the projects themselves 
had to be technically shovel-ready. So if they are shovel-
ready, I assume by that--and something that you just said is 
that the NEPA compliance--I guess whether Environmental 
assessment or a FONSI or something--has been complied with 
already.
    So I am trying to understand how then do you step in and 
accelerate that process? And, more importantly than that, you 
know, what authority do you see yourself having the ability to 
somehow modify NEPA, which is an existing law? Because on page 
four, where you talk about this January project with the DoT, 
January 2012, a pilot project to cut costs and fast track, I am 
trying to see how the NEPA process has been modified in what 
you are doing, if it has been modified at all.
    Ms. Sutley. Well, to the Recovery Act, what we found--and 
we reported to Congress quarterly on NEPA and the Recovery 
Act--that about 96 percent of the projects, the Recovery Act 
projects, used categorical exclusions, which is the sort of 
lightest touch of NEPA in evaluating those--in complying with 
NEPA and evaluating those projects, and that only one percent 
of those projects required an environmental impact statement, 
and those were completed.
    CEQ has authority under NEPA, basically, to help the 
agencies comply with NEPA, that, by and large, compliance with 
NEPA is done by the agencies, but that CEQ interprets both the 
statute and CEQ's own regulations, and provides advice to 
agencies on how to interpret NEPA.
    So, in the example that you referenced, we have set up this 
pilot program to try to look at, basically, best NEPA 
practices, where agencies have--use techniques, whether it is 
through using information technology or bringing stakeholders 
in early to help to expedite the NEPA process. And we have been 
working with the Department of Transportation on a--what is a 
big project that involves a number of States and a number of 
different jurisdictions to help bring all of that together, to 
make sure that we are both meeting the environmental needs and 
helping make sure this project goes through.
    Ms. Hanabusa. Thank you, Mr. Chair. My time is up, but I 
would like to request that the Chair provide us in writing 
exactly how the process is working, what evaluation. And I am 
also curious as to whether or not there have been legal 
challenges to whatever they may have done, in terms of waiving 
the NEPA process, or making determinations that it could go 
into this special category. Thank you, Mr. Chairman.
    The Chairman. I think that is a good request. I would hope 
that the Chairwoman would follow up on that. To all the 
Committee, I might add.
    Ms. Sutley. Happy to.
    The Chairman. The Chair recognizes the gentleman from 
Colorado, Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. Thank you, Ms. Sutley, 
for being here. Part of your obligation under CEQ is to issue 
and develop procedures, regulations. Can you tell me--just give 
me a number--how many new regulations you put forward since the 
Obama Administration was elected?
    Ms. Sutley. Well, we have not put any new regulations 
forward. What we----
    Mr. Tipton. You put forward no new policies?
    Ms. Sutley. We have put----
    Mr. Tipton. Or suggested any?
    Ms. Sutley. We put through a number of guidance documents 
to----
    Mr. Tipton. How many new regulations or rules has that 
added up to, do you know?
    Ms. Sutley. I think we have issued----
    Mr. Tipton. Ultimately, through all the agencies?
    Ms. Sutley. Through all the agencies?
    Mr. Tipton. Mm-hmm.
    Ms. Sutley. I don't know the answer to that.
    Mr. Tipton. Can you get us a number for that? I think it 
would be interesting. We have heard testimony that if we stack 
up all the regulations that have come into place since this 
Administration took office, it stacks over 13 feet tall. I 
would be interested to know what kind of role you played in 
that.
    Ms. Sutley. We would be happy to follow up with you on 
that.
    Mr. Tipton. You know--and I would like that. You know, you 
have a draft policy here on draft Ocean Policy. And when we 
read through this, we find that you are discussing about inland 
waters hundreds of miles away impacting our oceans that are 
going on.
    This Administration, as you are probably aware, has some 
policies that, in Colorado, are inhibiting our ability to be 
able to get in and to harvest out and treat dead and standing 
timber in our areas which, when that catches fire, is going to 
greatly impact our water, and probably ultimately go down--
looking at your policy for the oceans--as well.
    But when I am looking at this I guess what really kind of 
disturbs me when we are looking at increased regulations and 
further tentacles of government going in--no one disputes 
wanting clean water, a good and health environment, but you are 
including forestry, animal feed lots that you are going to 
start checking. What kind of cost analysis are you doing on 
this?
    Ms. Sutley. Well, what we are trying to do is focus the 
agencies on understanding the connections. So, as I said, we 
don't anticipate there being new regulations there. And these 
draft implementation policies are out for public comment right 
now, and we hope to get feedback on--from everyone on some of 
the areas that we have highlighted.
    Mr. Tipton. And there will be no new regulations that will 
come off of this.
    Ms. Sutley. That is not my intention.
    Mr. Tipton. That is not your intention. OK. Good.
    You know, today we are going--Representative Gosar and I 
have a bill on the Floor of the House here. It is a small 
regulation Conduit Hydropower Development and Rural Jobs Act of 
2012. This is aimed, in large part, at streamlining some of the 
regulatory processes out of NEPA. During legislative Committee 
hearings on this committee bill we heard testimony from rural 
and manmade pipeline companies that are putting in--trying to 
put in these projects. Their cost was $20,000 to install a 
small hydro unit. By the time NEPA came into the equation, that 
jumped up $50,000 additional cost on that. Our bill will be 
addressing that. This cost has rendered many of these projects 
economically unfeasible. And, as a result, existing regulatory 
framework discourages investment in renewable energy.
    What I would like to know is what is the Council doing, 
from your end, to address other areas? We are addressing one 
with legislation today. Are you trying to streamline these 
processes?
    Ms. Sutley. Well, as I said, we have issued guidance to 
agencies to point out where there are flexibilities in NEPA. 
And even our own regulations say that the purpose of NEPA is 
not to foster paperwork, it is to get to better decisions. So--
--
    Mr. Tipton. Is the goal to reduce costs? Because you just 
commented that the President wants the rules to be ``a cost-
effective and a sensible way.'' Cost-effective to whom?
    Ms. Sutley. Well, as I said, we have been working to focus 
on infrastructure projects, on job-creating infrastructure 
projects, tried to work with the agencies to streamline their 
reviews of those kinds of projects. And----
    Mr. Tipton. Are you aware that some of the policies have 
increased--we have families right now that are struggling to be 
able to keep a roof over their head. And because of regulatory 
policy, their water bills are going up, their electric bills 
are going up, all because of regulatory policy, and they are 
unable to feed their kids.
    Ms. Sutley. As I said, we are trying to look at all the 
ways that we can help agencies to understand where there are 
flexibilities under NEPA, and providing guidance for them, 
working with them through these rapid response teams and 
through these pilot projects, where we are trying to show where 
there are best practices, to help to reduce the time and the 
cost of environmental reviews.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from New Jersey, Mr. Holt.
    Dr. Holt. Thank you, Mr. Chairman. And thank you, Chair 
Sutley, for coming. There is lots to talk about, but I would 
like to look at two topics, to give you a chance to elaborate 
on some of what you have already said--your role in the ARRA 
and NEPA expedition, and also the Climate Adaption Task Force.
    Our colleagues--actually, one of them--pressed you on what 
your background was in business. I would just point out that he 
and anyone who cares about these things should want a vigorous 
NEPA process, because through that process all the stakeholders 
get to weigh in. And so I think that is what you have been 
trying to do.
    It seems to me that several million dollars in your budget 
is a bargain for this country, in what--the kinds of 
coordination that you provide, and specifically the ARRA. You 
know, you have surveyed what happened in the various projects 
there, and found nearly 200,000 NEPA reviews were completed 
expeditiously. Could you explain a little bit what value added 
CEQ brought to that process?
    The ARRA, despite claims from the other side, has been 
demonstrated to be an economic success, a real economic 
success. It seems to me that it is also an environmental 
success. To what extent did you help make that happen?
    Ms. Sutley. Well, thank you for the question. We have--one 
of the things that the ARRA required was that we report 
regularly to Congress on NEPA and the Recovery Act, and we 
provided those reports which showed, again, that--as you 
noted--hundreds of thousands of projects, most of them, were--
could use categorical exclusions to comply with NEPA, which 
is--which, again, the lightest touch environmental review, 
because they have very little impact on the environment, and we 
recognize that.
    We also saw documented in those reports a number of areas 
where the NEPA process itself helped to make the projects 
either go faster, or ended up with better projects. And that--I 
think we have seen throughout the history, the 40-plus-year 
history of NEPA, where the engagement of the public early on, 
where the focus on having the agencies understand and 
communicate the environment effects of proposed Federal actions 
has resulted in better projects. And so we saw that throughout 
the Recovery Act.
    And we also work very closely with the agencies, to make 
sure that they were--that their NEPA procedures were--you know, 
applied the right level of analysis to the kinds of Recovery 
Act projects. So that--we believe that most--and the numbers 
show that the vast, vast majority of Recovery Act projects were 
covered by categorical exclusions.
    Dr. Holt. Well, thank you. Let me turn, then, briefly to 
the Climate Adaptation Task Force. There is a new article in 
Science Magazine on the geological record of ocean 
acidification, which points up a dimension of our climate 
change, the human emission of carbon into the atmosphere, it is 
changing the acid, the acidity of the ocean, with probably 
devastating effects.
    And the point of this article is, well, first, that the 
ocean, which has really been a metaphor for vastness, for 
infinity, for limitless over the years, is really quite finite, 
and we are changing it. And we are changing it at a pace 
greater than has ever been observed over several hundred 
million years of geological record.
    The Washington Post today has an editorial on this subject 
that says, ``Scientists cannot and need not be definitive about 
exactly what will happen and when all over the earth. As ever 
with climate change, there is a range of risks involving mind-
bogglingly complex planetary systems that scientists can 
attempt to anticipate. The point is there are enough dangers of 
such magnitude and probability that humans should invest in 
reasonable policies to avoid them.''
    Isn't that the point of the Climate Adaptation Task Force? 
Sorry, I leave you no time to respond. Yes or no?
    Ms. Sutley. Yes.
    Dr. Holt. Thank you.
    The Chairman. I thank the gentleman.
    Dr. Holt. Thank you.
    The Chairman. The gentlelady from Guam is recognized, Ms. 
Bordallo.
    Ms. Bordallo. Good morning, Chairman Sutley, and thank you 
for your testimony this morning. I am going to focus more on 
the territories in the Pacific Islands, since we don't talk too 
much about them. And I know my colleague is with me on this. 
The citizens in Guam and the other Pacific Islands have a vital 
interest in protecting ocean and coastal resources, since 
naturally we are surrounded by the ocean.
    However, administrative efforts frequently do not extend 
out to our territories. For example, in June of 2011, a 
National Ocean Policy listening session in the State of Hawaii 
was provided as a video conference to Guam. But due to 
technical issues, the attendees in Guam were not able to fully 
participate in the conference. And, as far as I know, there has 
never been a follow-up.
    How can we ensure that all stakeholders are involved in the 
creation and implementation of the national policy? And, in 
addition to the regional planning bodies, can you please 
describe other ways that local stakeholders can have input on 
actions taken under the National Ocean Policy?
    Ms. Sutley. Well, thank you for the question. And we 
apologize for the technical trouble in getting residents of 
Guam involved in that particular listening session. But one of 
the key aspects of the National Ocean Policy is to engage the 
public. And we will certainly be happy to follow up with you 
and discuss further ways that we can ensure that residents of 
the territories have the opportunity to participate. Because 
for this to work, we really do need the participation of all 
the stakeholders and the public in this process.
    Ms. Bordallo. Well, thank you, Madam Chairman. I really 
feel that the territories are very important to our country.
    Also, another question. The draft Implementation Plan 
states that 4 of the 9 regional planning bodies will be 
established by 2013, while the remaining 5 will not be 
established until 2015. How will priority among the regions be 
established, and how will the local members of the councils be 
determined?
    Ms. Sutley. Well, we are--as to the membership of the 
councils, we are working on that right now. We want to ensure 
that there is adequate representation of all the governments 
involved in that. And in terms of the priorities, it is really 
in dialogue with the regions to figure out who is ready to go, 
and where there needs to be more groundwork laid.
    So, the idea--there are some areas that have proceeded out 
at the state level or at the regional level. We are working on 
a number of these issues, for example, in New England, where 
there has been a lot of work done. So, you know, they are 
likely to proceed faster than some of the other regions, but 
that is really something that we will determine working with 
the governments in each region.
    Ms. Bordallo. Well, thank you. Now, as you know, Guam 
provides an important military presence in the Pacific region. 
And often we are forced to choose between the environment and 
security, although I do not believe this is always necessary. 
Does the National Ocean Policy consider national security 
interests in the planning process?
    Ms. Sutley. Yes, absolutely, it does. We have, from the 
very beginning, had very active engagement from both the 
civilian and military side of the Department of Defense, as 
well as the Coast Guard. And we recognize that we need to work, 
again, closely with the governments throughout the coastal 
regions to ensure that we are balancing all of these interests.
    Ms. Bordallo. And one further question I have. One of the 
tenants of the NOP is to improve access to data gathered by 
Federal programs. I applaud the launch of the oceandata.gov web 
portal. Now, can you provide any information on improving 
access to this information beyond the web portal? Is there any 
movement to create a Pacific regional data portal?
    Ms. Sutley. I will have to get back to you on that, 
Congresswoman Bordallo, but we will be happy to follow up with 
you on that.
    Ms. Bordallo. Thank you. Thank you, Chairman Sutley. And I 
yield back.
    The Chairman. The time of the gentlelady has yielded back. 
The Chair recognizes the gentleman from Alaska, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. I would just like to 
ask one. Where do you get your money to run your operation?
    Ms. Sutley. We are appropriated money by Congress.
    Mr. Young. Directly to?
    Ms. Sutley. Yes.
    Mr. Young. Where is the National Ocean Policy coming from, 
the money?
    Ms. Sutley. Well, we are working on some specific responses 
to the questions from the Chairman on that, but we are 
largely----
    Mr. Young. Let's get to the quick, now. Where do you get 
your money? How do you get paid, and where do you get your 
money?
    Ms. Sutley. CEQ comes through the Interior appropriations, 
and----
    Mr. Young. CEQ gives it to you directly, there is no 
understanding, you know, how it is going to be spent?
    Ms. Sutley. Well, we develop our budgets, as all agencies 
do. We are----
    Mr. Young. Who do you file the budget with, the Congress? 
Or is it filed with the other group, Interior?
    Ms. Sutley. No. For the Council on Environmental Quality--I 
am sorry if I am not understanding your question--Council on 
Environmental Quality, we are part of the Interior 
appropriations bill. We have a separate line item for the 
Council on Environmental Quality.
    Mr. Young. Just one line item? All right, I am still--we 
will find out where that--and, Mr. Chairman, thank you for 
asking that question, too, because I am--the National--the 
draft National Ocean Policy Implementation Plan notes that the 
ecosystem-based management section--that a pilot project will 
help identify what, if any, changes may be needed to existing 
statutory and regulatory mandates and requirements.
    At the last hearing you stated the National Ocean Policy 
would not result in any regulations. This implies there will be 
new regulation requirements. Which one is it, last testimony or 
this testimony?
    Ms. Sutley. Well, I think that the purpose of the 
implementation plans is to find out how things are working, and 
to see where we can make improvements. So we are not intending 
to add any regulations.
    Mr. Young. Intending? Yes or no, are you going to have new 
regulations?
    Ms. Sutley. We do not intend to.
    Mr. Young. The same section also says that special areas of 
high and unique value must be identified. Who will do that 
identification, and what criteria will be used?
    Ms. Sutley. Well, the marine spatial planning process is 
one that has to be done in concert with all of the States in 
the various regions, with the governments in the various 
region, and with the stakeholders and the public.
    Mr. Young. They will be all involved, and nothing will be 
defined until they all agree?
    Ms. Sutley. That is right. The process is one where we are 
trying to bring everyone together to use the best available 
information, to understand what the uses of the ocean are, and 
what we know about different parts of the ocean.
    Mr. Young. OK. The CEQ and other--and many agencies--the 
use of a cautionary approach in evaluating environmental 
effects and activities. There is an equivalent to precautionary 
approach to determine economic effects. Do you look at the 
economics, as well as the other facts?
    Ms. Sutley. Well, we certainly consider the importance of 
the economic activities that are going on in the ocean. We know 
they are very important to our country, and we will certainly 
keep those very high in our consideration.
    Mr. Young. OK. In a recent meeting with one of the 
Committee staff, a fisherman from California described efforts 
where fishermen voluntarily mapped their fishing grounds for 
purposes of planning efforts and, actually, harvesting efforts. 
That information was later used by environmental groups to 
target closures for specific fisheries.
    Why do you think fishermen will benefit from the marine 
special planning program? And do you understand why they are 
suspicious of this effort?
    Ms. Sutley. Well, I certainly understand their concerns, 
but we think it is important that they be part of the process, 
so they can bring not only their information, but their points 
of view to all of these----
    Mr. Young. Well, see, ma'am, all due respect, they did do 
that, and they submitted their information because they plan 
where they are fishing, and yet that was used against them. Why 
would anybody participate in your program, if that is going to 
occur? Can you stop that?
    Ms. Sutley. Well, we think that there is also--we think 
that there is the experience--I mean we have seen the 
experience in other places, where bringing everybody to the 
table early on built trust and helped to result in a better 
outcome.
    Mr. Young. Well, apparently that did not happen in 
California.
    Ms. Sutley. Well, I am not that familiar with that specific 
incident, but I----
    Mr. Young. I would suggest you find out about that, and 
find out what occurred, and whether you can stop that type of 
activity. Because I know if I was a fisherman, I wouldn't give 
you any information.
    Ms. Sutley. Understand.
    Mr. Young. You know, I used to fish, and I damn well 
wouldn't give you any information, because you would use it 
against me. And that doesn't gain trust, because--and I really 
don't like your organization to begin with, so let's make that 
perfectly clear, because I do believe you overreach, you don't 
know where your money comes from, you put on policy, and I 
don't think the policy is vetted with necessary people that are 
directly involved to a point where it makes good sense.
    Mr. Chairman, my time is up.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from the Northern Marianas, Mr. 
Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman. And welcome, 
Madam Chair.
    In 2008, I think, or--yes, it was late 2008--former 
President Bush, for his own reasons, decided to create a 95,000 
square miles monument in the Marina Islands, and including the 
3 island units. There were--I was in the room when your 
predecessor made some promises. None of those promises have 
been kept. You got what you wanted, but we got nothing.
    So, at this time--I know that there is some conversation 
between Congress and your office. I am trying to get at least 
one of those, so far. We would really like to urge you, if I 
may get your commitment, that we would get that discussion 
fully and finally settled. I think we are waiting on a letter 
on--because we need to get something, for starters, for our 
agreement to this 95,000 square miles of monument.
    I won't go to the visitor center yet, because that is 
another promise that has really gone nowhere. If we cannot get 
a letter, we cannot get a visitor's center, I assure you.
    But I am going to ask several other questions. We are--and 
just for the record, if anyone really has any doubt on the 
science of climate change, I have a place called Micronesia, 
and we can come and I will show you the rising waters where--
because I went to school on some of these islands, where homes 
that used to be on land, they are now under water.
    We are also clearly experiencing greater demands on the use 
of the ocean. The current permit-by-permit approach to the way 
we manage the ocean is simply not meeting these growing 
challenges, and we are seeing increased conflicts: greater 
delay and increased cost. Can we afford to simply sit back and 
continue with the status quo?
    Ms. Sutley. Well, thank you. The purpose of the National 
Ocean Policy is to try to break down some of those silos among 
agencies, and that we are working together, coordinating, 
working with the governments around our coastal and marine 
resources so that we can continue to get the benefit of the 
economic activity that is associated with a healthy ocean.
    Mr. Sablan. All right. And because I didn't get an answer 
to my earlier statement----
    Ms. Sutley. I am sorry.
    Mr. Sablan [continuing]. Do we have a commitment from you 
that we can----
    Ms. Sutley. We will work----
    Mr. Sablan [continuing]. Get that letter that we are being 
asked for----
    Ms. Sutley. We are happy to follow up with you on that, 
sir.
    Mr. Sablan. Follow up is not--I have learned here in three 
years in Congress, ``follow up'' doesn't mean anything. Yes or 
no?
    Ms. Sutley. We will work through this. Thank you, sir.
    Mr. Sablan. My other question, is coastal and marine 
spatial planning in fact regulatory zoning that will restrict 
uses?
    Ms. Sutley. No, it is not. It is really about sharing 
information, about bringing everyone to the table early on, so 
that we understand the uses of the ocean and how to ensure that 
we continue to get the benefit of those uses in a healthy 
ocean.
    Mr. Sablan. All right. And so, the improved collaboration 
and prioritization on key issues provided in the National Ocean 
Policy, exactly what we need in time for shrinking budgets. 
Isn't this what we need?
    Ms. Sutley. Yes. I think the collaboration among agencies 
helps us to leverage the resources that each agency brings to 
the table, tries to make sense out of more than 100 laws and 
regulations around the ocean, so that we can make better use of 
the taxpayer's dollar.
    Mr. Sablan. So won't this decrease duplication and waste? 
So that--decreased duplication and waste actually helps----
    Ms. Sutley. Yes.
    Mr. Sablan [continuing]. With limited funding. And probably 
my last question, Mr. Chairman.
    Is--do any of the nine priority objectives of the National 
Ocean Policy supersede the Regional Fisheries Management 
Council jurisdiction, or the Magnuson-Stevens Act?
    Ms. Sutley. No, they don't.
    Mr. Sablan. They don't? And just to follow up on Ms. 
Bordallo, the gentlelady from Guam's, statement, they couldn't 
get on the VTC is her complaint. We couldn't actually hear the 
discussion on the phone. So there was really some mix-up, and I 
am sure it will not happen again.
    Ms. Sutley. We will----
    Mr. Sablan. But I thank you for your commitment, and we 
will work on that letter----
    Ms. Sutley. Yes.
    Mr. Sablan [continuing]. That we really need as soon as 
possible.
    Thank you, Mr. Chairman. And I yield back.
    The Chairman. The gentleman yields back his time, and the 
Chair recognizes the gentleman from Ohio, Mr. Johnson.
    Mr. Johnson. Chairwoman Sutley, thank you for being here 
today. I understand that the Council on Environmental Quality 
has been involved with the rewrite of the stream buffer zone 
rule, as CEQ was to coordinate agency policy discussions based 
on the 2009 Memo of Understanding.
    My first question is, when precisely did CEQ become 
involved with discussions to rewrite the stream buffer zone 
rule?
    Ms. Sutley. Thank you for the question. We have received 
oversight requests. We are working on the answers to those. I 
can't give you a precise date, but----
    Mr. Johnson. Can you get back to me about when----
    Ms. Sutley. Yes.
    Mr. Johnson [continuing]. Your Department first became 
involved? I asked for this precise date because a Federal 
Register notice from June of 2010 stated, ``We had already 
decided to change the rule, following the change of 
Administration on January 20, 2009.''
    Additionally, there are internal OSM documents that state 
OSM had already begun developing a revised rule, following the 
change of administrations on January 20, 2009.
    So, according to internal Administration documents, not 
only was the decision made to change the rule upon the change 
of the administration, but work had begun on the rewrite when 
the administration changed.
    Now, you weren't confirmed by the Senate until January 22, 
2009, so you might not know if CEQ played any role in the 
Administration's original decision to change the rule. But it 
would be helpful to know when you and CEQ became involved in 
the decision to rewrite the rule.
    Ms. Sutley. Try to get----
    Mr. Johnson. OK, so you will get back to me on that.
    Have you met with Director Pizarchik on the stream buffer 
zone rule rewrite? And if so, who else attended those meetings?
    Ms. Sutley. I have not.
    Mr. Johnson. You have not?
    Ms. Sutley. No.
    Mr. Johnson. Has anyone in your Department?
    Ms. Sutley. I am not aware of that, but I will--we can get 
you that----
    Mr. Johnson. OK. If you could get back to me on that, I 
would appreciate it.
    Were you or anyone at CEQ involved or aware of the decision 
by OSM to not defend the 2008 stream buffer zone rule against 2 
lawsuits filed against the Administration by environmentalist 
groups that were ultimately settled?
    Ms. Sutley. I personally was not, but again, we can follow 
up with you.
    Mr. Johnson. OK. Were you or anyone at CEQ involved in or 
aware of the decision in which OSM employees directed the 
contractors to use false assumptions to show the preferred rule 
would not cost as many direct and indirect coal jobs after the 
original job loss number appeared in the press reports?
    Ms. Sutley. No, I was not, and I am not aware of anyone at 
CEQ involved in that.
    Mr. Johnson. OK. Were you or anyone at CEQ involved in or 
aware of the decision by OSM to end the contract with the 
original contracting team, and then to pay them in full when 
they told OSM that they would not lie to hide the job loss 
numbers?
    Ms. Sutley. I was not involved, and I am not aware of 
anyone at CEQ being involved.
    Mr. Johnson. OK. With that, Mr. Chairman--those are all my 
questions--I yield back the remainder of my time. I can yield 
my time to Mr. Flores, if he would like it.
    The Chairman. Go right ahead.
    Mr. Flores. Thank you, Mr. Johnson. Thank you, Mr. 
Chairman. Ms. Sutley, thank you for joining us today. Got a 
series of questions.
    The first one has to do with section 6(b) of executive 
order 13547, that established the National Ocean Policy in July 
of 2010. And this executive order requires that each executive 
department, agency, and offices that is required to take 
actions under this order shall prepare and make publicly 
available an annual report, including the concise description 
of the actions taken by the agency in the previous calendar 
year to implement the order, a description of written comments 
by persons or organizations regarding the agency's compliance 
with this order, and the agency's response to such comments.
    This committee is not aware of any such annual reports 
having been prepared. And so, pursuant to this requirement, has 
CEQ prepared and made any such annual report publicly 
available?
    Ms. Sutley. Not that I am aware of, but we could follow up 
with you on that.
    Mr. Flores. OK. When you send it, I would like an executive 
summary of it, as to what your findings and contents are in 
that report.
    As the Chair of the CEQ, are you aware--in the capacity of 
the Co-Chair on the National Ocean Council, are you aware of 
any reports that any of the other agencies have done? You know, 
that includes State, Defense, Interior, Agriculture, Health and 
Human Services, Commerce, Labor, Transportation, Energy, 
Homeland Security, Justice, Environmental Protection Agency, 
NASA, Federal Energy Regulatory Commission, Office of 
Management and Budget, National Intelligence Science and 
Technology Policy, and the National Science Foundation. Have 
any of those issued annual reports, as far as you know?
    Ms. Sutley. Offhand, I don't know, but we will follow up 
with you.
    Mr. Flores. OK, thank you. Quickly, I hope.
    The Chairman. The time of the gentleman has expired. The 
gentlelady from California, Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. And welcome again, 
Ms. Sutley, good to see you.
    Looking at the budget that you have--and you are now 
getting another budget cut--how are you going to be able to 
follow up on some of these things? And maybe in that area I am 
really puzzled by our embracing in this committee, especially 
my colleagues on the other side, repeatedly pass bills to 
create exceptions to NEPA, the law designated to ensure that 
major Federal actions affecting the environment are 
transparent, and that our public, the citizens, the ones 
affected, have an opportunity to comment on those actions and 
their environmental impact.
    And, as Mr. Tipton was mentioning, later today the House 
will vote on yet another NEPA exemption, that one on small 
conduit hydropower, which I find a little troubling. And does 
the Administration oppose these types of exemptions?
    Ms. Sutley. Well, thank you for the question. We believe 
that NEPA performs an important purpose, as you said, to engage 
the public, involve the public, and provide transparency into 
Federal decision-making, and to ensure that Federal agencies 
are considering the impacts on the environment on proposed 
actions.
    We also believe that there is flexibility under the NEPA 
statute, that agencies are--under NEPA are to focus their 
attention and their resources on the decisions that have the 
greatest environmental impact. And we believe the agencies have 
done a good job of managing that.
    Mrs. Napolitano. OK, and that brings to a point that has 
been discussed in the Transportation and Water Subcommittee, 
and that is the issue of California's CEQA being more stringent 
than NEPA. And that would save NEPA some money, instead of 
having to go through the process of verifying the CEQA 
projects. Is there anything going on that is going to allow 
California to use CEQA and waive NEPA on this particular--since 
the requirements are more stringent?
    Ms. Sutley. Well, there are some differences between CEQA 
and NEPA, in particular with respect to evaluation of 
alternatives. Having said that, we have been working closely 
with the State of California, as--in looking at some 
opportunities to work even better together on NEPA and CEQA, 
and for many projects in California. You know, they try to 
merge the documents so that you have both an EIS and a----
    Mrs. Napolitano. I would love to be able to get some report 
on that, Ms. Sutley----
    Ms. Sutley [continuing]. But we will follow up.
    Mrs. Napolitano [continuing]. Simply because they are very 
critical.
    And in mentioning streamlining, a lot of the conversation 
has gone to the cost. There is some costs that sound 
exorbitant, but I don't know how long it has gone, although 
they are stating in many instances that the process is so long, 
that it is so costly, that some people may give up.
    In your streamlining, whether it is true or not, are you 
looking at cutting not only the cost to the projects, but also 
the reduction in time? And how, as you are going out seeking 
input, how is that affecting your decision to be able to reach 
that?
    Ms. Sutley. Well, particularly with respect to highway 
projects, we do have some information from the Federal Highway 
Administration, that most of their highway-related actions are 
covered by categorical exclusions, and that only .3 percent of 
highway projects need a full environmental impact statement, 
and that not just Federal highways, but----
    Mrs. Napolitano. Right. But--I'm sorry, but my time is 
running out--but specifically to cutting the cost and cutting 
the time frame to be able to process, how are you going to do 
that in receiving the input?
    Ms. Sutley. We have established with the Department of 
Transportation a transportation rapid response team to look at 
a number of priority projects that will bring in all of the 
stakeholders and the States, as well as all the agencies that 
have----
    Mrs. Napolitano. OK, that is transportation. What about 
water? What about in looking at these conduit hydropower 
projects that are being proposed to be able to create 
additional power?
    Ms. Sutley. Again, it is my understanding that most of 
those are already covered by categorical exclusions, which is 
the least intensive level of environmental review, and that 
provides an opportunity to expedite those projects.
    Mrs. Napolitano. But would you favor the waiver of NEPA for 
these small conduit under 1.5 megawatt?
    Ms. Sutley. No.
    Mrs. Napolitano. Thank you, Mr. Chair. I yield back.
    The Chairman. The gentlelady yields back. The Chair 
recognizes the gentleman from Texas, Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman. The reason I am 
bringing this question up is we are reviewing your funding 
request. And so we have oversight responsibilities, as well as 
fiduciary responsibility to take care of the taxes of hard-
working American taxpayers.
    And so, let's roll--in order to look at future funding 
requests, we need to roll the clock back just a little bit. And 
so my question is this. In June of 2011 there was a National 
Ocean Policy workshop. How was that funded?
    Ms. Sutley. We are in the process of responding to a 
request from the Chairman for that information. We are working 
on that, and we will get back to the Committee as soon as we 
can.
    Mr. Flores. OK, did--and I am sorry I wasn't here for that 
question. Did it include a request for the number of attendees, 
and from which agencies they came, and so forth?
    Ms. Sutley. I believe we will provide that information.
    Mr. Flores. OK. Is it--did it ask about any non-
governmental funding for the workshop?
    Ms. Sutley. Yes.
    Mr. Flores. It did? OK, all right. OK. With that, I yield 
back to the Chairman.
    The Chairman. I--the gentleman yields back his time. The 
Chair recognizes the gentleman from Mexico, Mr. Lujan.
    Mr. Lujan. Thank you very much, Mr. Chairman. Madam Chair, 
thank you for being with us as well today.
    As you know, my State of New Mexico has enormous potential 
for solar power development, I think, in the United States, 
only second to Arizona. One of the biggest obstacles is 
connecting the generation site to markets. There is a proposed 
project, SunZia, a transmission line that would connect New 
Mexico and Arizona, potentially open up markets into Southern 
Colorado and elsewhere, especially with the convergence of a 
project we hope to see come to fruition soon with Tres Amigas.
    You recognize this project as a part of your Rapid Response 
Transmission initiative. Unfortunately, some of our colleagues 
want to abolish the financing for projects like SunZia, the 
Centennial Clean Line, and TransWest Express. Can you talk 
about how your Rapid Response initiative is helping with new 
transmission permitting, how these new lines can help address 
new transmission needs, and what would happen if the western 
area of power financing was abolished?
    Ms. Sutley. Well, thank you. We believe it is very 
important for us to focus on transmission that will connect 
renewables and other generation to the demand for that 
electricity, that we need to look at our transmission system 
and how it can integrate renewables. And also, transmission 
obviously provides important benefits, in terms of reliability.
    And so, we set up this--established this Transmission Rapid 
Response Team, again, to bring all the agencies in who have 
some role in the Federal approval of transmission projects. We 
work closely with the States, with both the western 
interconnect and the eastern interconnect, and we think it is 
an important part of our infrastructure going forward, that 
will allow us to access low-cost supplies of generation, 
including--with renewables.
    So, it is an important part of our energy future to--as the 
President said, that we need an all-of-the-above energy 
strategy that includes developing new sources of energy, 
including renewables.
    Mr. Lujan. And if the western area power financing was 
abolished, do you have a concern that that could hinder these 
projects?
    Ms. Sutley. Well, I don't have any specific knowledge of 
that. But as I said, we think that these are important 
projects. These are projects that the States think are 
important. And we are working as hard as we can to work with 
the States to make sure they go forward.
    Mr. Lujan. Appreciate that. And then another area, Madam 
Chair, that needs your support and assistance with, and 
consideration with, some of the responsibilities that the 
Council has in regarding of consideration. There has been some 
conversations associated with categorical exclusions with some 
projects.
    In New Mexico we have one of the oldest forms of governance 
associated with adjudication of water. And it is in Southern 
Colorado, as in most of New Mexico, and it is an acequias 
system--which is spelled a-c-e-q-u-i-a-s--which some people 
would describe as ditches, others would describe them as 
canals. But they are really unique, and they start at the 
headgates. There is compuertas, which are headgates in these 
watersheds. And you open them up--and they predate the Forest 
Service, predate the U.S. Government. And we have some 
challenges associated with how categorical exclusions are 
evaluated by those that are administering some of the public 
lands policy with the difference of new construction versus 
maintenance.
    And I would ask that--as we work in the Committee, we have 
had some conversations about codifying traditional use access 
to public lands, what these acequias mean. We will be following 
up with some information to you and to your office, 
documentaries talking about acequias. If we can get the team 
out to New Mexico to walk in some of these areas firsthand, 
there is an acequias that actually runs through my front yard.
    Growing up, we--as a community you come together as members 
of these acequias. They are called parciantes, where you are 
members, and you actually clean those ditches out yourself with 
a shovel, with a rake. You cut the weeds, you form the ditch, 
and you work collectively to make sure you can get that water 
to produce crops, to provide water to your animals. We still 
raise sheep where I come from. My grandfather was a sheep 
herder.
    And so, this is something that is critically important. And 
so we are hoping that we might be able to get your support in 
this area. And we will definitely be bringing it to your team.
    Mr. Chairman, I know this is something that we will be 
talking about a little bit later in the Committee associated 
with access to some of the public lands. So I appreciate you 
bringing us together today, and the support on that endeavor.
    Thank you, Madam Chair.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Florida, Mr. Rivera.
    Mr. Rivera. Thank you very much, Mr. Chairman. As you may 
know, the State of Florida and its congressional delegation has 
serious concerns regarding drilling off the coast of Cuba, and 
how a potential accident would affect the United States and our 
coastline. And I have been disappointed with the lack of effort 
by this Administration to prevent a state sponsor of terrorism 
like Cuba to drill approximately 60 to 65 miles off of 
Florida's coast, and therefore providing economic aid and 
comfort to the Castro dictatorship.
    So, I would like to ask you, Chairwoman Sutley, going back 
to your field of expertise, the proposed drill sites are very 
close to--or even beneath--the Gulf stream. There is limited 
information about where pollutants such as spilled oil, 
associated drilling products, and chemical dispersants may be 
transported in the surface and subsurface ocean, or on the 
general effects of oil spills and spill treatments on coral 
reefs, oceanic and coastal ecosystems.
    There are several Florida universities and research 
institutions that have proposed a scientific research agenda 
that would provide valuable information necessary to respond 
quickly to a spill in the Cuban waters. Many consider it an 
early detection system, so to speak, because we can't trust the 
Castro regime to notify us when an accident has occurred, 
because by the time we find out, it may be too late. The plan 
includes baseline assessments of physical and biological 
oceanography, toxicity studies on oil and dispersed oil on 
organisms and ecosystems, and detailed predictive models of 
where spilled oil or other pollutants may be transported, and 
what the impacts may be.
    Have you heard of, or are you familiar with any of these 
proposals from these universities and research organizations?
    Ms. Sutley. Personally I am not----
    Mr. Rivera. You have not. Maybe, if it is possible, I would 
like to arrange a meeting with you and some of their 
representatives, so that we can discuss some of these matters, 
because I think it is important that, rather than just reacting 
to a disaster, we should be working proactively to develop a 
plan and coordinate the appropriate agencies with our partners 
in academia and the private sector to launch some sort of ocean 
monitoring network.
    So I appreciate that, Chairwoman Sutley. I hope we can work 
together on this.
    And I would like to yield my time, I believe, to 
Congressman Southerland, Mr. Chairman, with your permission.
    Ms. Sutley. Thank you.
    Mr. Southerland. I would like to thank my fellow colleague 
from Florida for yielding.
    Ms. Sutley, I wanted--earlier in your comments you made 
reference to how the Administration is working closely with the 
States. And there is an issue that is very dear to us in 
Florida, and I just want to bring it to your attention, and ask 
for your encouragement. The State of Florida, our Legislature 
in the State of Florida has been working feverishly on numeric 
nutrient criteria legislation. We, our delegation, the Florida 
delegation, have--recently wrote a letter to Administrator 
Jackson of the EPA, that they would adopt the Florida 
standards.
    As you may or may not be aware, Florida has recently been 
singled out, and we now have to--according to the EPA, they 
have promulgated rules that holds Florida to a higher standard 
than all other 49 States in the Nation. So we have in some ways 
been singled out, and I think that is certainly not democratic, 
the way that this has rolled out.
    However, there is great bipartisan support. This bill that 
came out of the Florida Legislature, unanimous support by 
Democrats, Republicans, signed by the Governor, and there is 
broad support from the Florida delegation, Members on both 
sides of the aisle. So I would like, with your permission, to 
hand you a letter that we sent, just ask you, if you would, in 
the spirit of the Administration working with the States, this 
is certainly something that is important to over 21 million 
residents of the State of Florida, and the 67 counties, and I 
would appreciate your consideration.
    Ms. Sutley. Thank you. I appreciate what an important issue 
this is, and I am certainly happy----
    Mr. Southerland. Sure.
    Ms. Sutley [continuing]. To follow up with you on that. 
Thank you.
    Mr. Southerland. Thank you. And with the time left, I am 
going to yield the balance of that to the gentleman from Texas.
    Mr. Flores. Thank you, Mr. Southerland. The final 
recommendations of the Interagency Ocean Policy Task Force 
found that coastal and marine spatial planning in particular 
will require--and I quote--``significant initial investment of 
both human and financial resources.''
    More recently, the draft National Ocean Policy 
Implementation Plan noted that as the National Ocean Council 
developed actions to include in the draft plan, Federal 
agencies were asked to provide information on how ``existing 
resources can be repurposed for greater efficiency and 
effectiveness.''
    So, my question is, as the Co-Chair of the National Ocean 
Council, please describe the response of the Federal agencies 
on how they plan to reprogram their funding to address this 
issue.
    Ms. Sutley. Well, we are happy to follow up with specifics, 
but I would just say that, as I said, we expect agencies, you 
know, to work within their existing resources, that agencies 
now--and many Federal agencies--devote significant resources to 
the oceans and to ocean resource management, and that the 
purpose--and one of the benefits, we think, of the National 
Ocean Policy is to help to focus those resources, and also to 
leverage resources in--within the agencies.
    Mr. Flores. OK. But you will provide a fulsome response to 
us on this question?
    Ms. Sutley. We will.
    Mr. Flores. OK. And when you are doing that, if you would 
provide the statutory authority for those agencies to be re-
purposing their funds to do that, if you would.
    Ms. Sutley. Yes. As we have said before and to this 
committee, we believe that agencies, within their existing 
authorities, can--that the activities of the National Ocean 
Policy are covered within existing authority.
    Mr. Flores. Well, I think----
    The Chairman. We will----
    Mr. Flores. We have a difference of opinion. Thank you. I 
yield back.
    The Chairman. We will follow up on that. The Chair 
recognizes the gentleman from Maryland, Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you for being 
here. Before I ask you my question, I just wanted to clear 
something up for the record. I think earlier Mr. Young had 
raised some concerns about an instance where a fisherman had 
shared some information or something that was then used against 
them, in their view. And the Committee staff has informed me 
that this was actually a state process in California, and not 
the National Ocean Policy. And I just want to make sure that 
was clarified for the record, Mr. Chairman.
    Now, Chair Sutley, thank you very much for being here. I am 
very appreciative of the work that you do. It is an incredibly 
important role that you play. You take the responsibilities of 
your office very seriously, and I think are carrying them out 
as the original NEPA envisioned. And I thank you for all the 
work that you are doing.
    As you know, I am focused a lot of the time on all things 
Chesapeake Bay, and I wanted to just ask you a couple of 
questions about that. I always like to begin or preface these 
questions by reminding people that the Chesapeake Bay Watershed 
encompasses six States and the District of Columbia: New York, 
Pennsylvania, Virginia, West Virginia, Maryland, Delaware, and 
the District of Columbia. And there are over 50 districts, 
congressional districts, that have tributaries in them that 
flow into the Chesapeake Bay Watershed.
    So, certainly those folks have a mutual stake, but the 
Chesapeake Bay is a national treasure. It is the largest 
estuary in the country, and there is--that ecosystem is so 
fragile that we have to do all we can to make sure that we are 
protecting it, we are restoring the health of the Bay over 
time. And obviously, the CEQ plays a critical role here. There 
are seven agencies, Federal agencies, as you know, that have 
different responsibilities pursuant to the Chesapeake Bay 
program, to make sure that all the efforts are being 
coordinated.
    And I would like you to just give me your view, sort of 
from where you sit as Chair of CEQ, on how those efforts are 
going, in terms of good coordination, whether we are making the 
kinds of strides that you and I would like to see with respect 
to the Chesapeake Bay.
    Ms. Sutley. Well, thank you. And we agree, the Chesapeake 
Bay is a national treasure. It is, as you noted, the largest 
estuary, very important to the region and to the Nation, as a 
whole, and that to protect the Chesapeake Bay and to restore 
its health, it takes the effort of not just the seven Federal 
agencies, but all the States within the watershed. And the 
efforts underway right now are really to coordinate Federal 
activities and to work closely with the States to ensure that 
we are making progress.
    And for example, we are seeing some improvements, both in 
terms of some of the important fisheries and--shellfisheries in 
the Bay, as well as a reduction in the pollution loads, some of 
the pollution loads in the Bay, and I think some very important 
sort of break-throughs in working, for example, between EPA and 
the Department of Agriculture, working with the agricultural 
community within the watershed on voluntary programs and best 
practices to keep run-off from reaching the Bay.
    So, obviously, a lot of work to be done. And what it is 
going to take is the continued focus of the agencies, and 
certainly the continued focus of the States.
    Mr. Sarbanes. One of the things that we are glad to see is 
that there is an ambition now to collect metrics on a more 
regular basis, in terms of the health of the Bay. We used to 
set out these programs to restore and protect the Bay, where 
you would have kind of a 10-year goal and, you know, at 9 years 
everyone is scrambling around to see what had happened. But we 
now have the opportunity--frankly, because there is so much 
more information at our fingertips--to take a look on a more 
regular basis, so we know whether we are on the right track, 
and to make adjustments if we need to, and make sure that all 
the agencies and partners that are in this effort are 
coordinating with one another.
    And I do also want to thank you, because I think CEQ and 
certainly you and others in the Federal agencies that are 
working on the Chesapeake Bay have recognized as well how 
important it is to establish a partnership between the Federal 
Government, and not just state and local governments, but with 
the citizenry in the Chesapeake Bay Watershed.
    And my view--and we have talked about this before--is 
ultimately the health of the Bay will depend on reaching a 
tipping point where the 17 million residents of the Chesapeake 
Bay Watershed, who may collectively have some bad habits right 
now when it comes to looking after the Bay and water quality 
and so forth, develop good habits. And there is so much desire 
out there on the part of ordinary citizens to step forward and 
embrace these efforts with the environment and with the 
Chesapeake Bay, that I think it holds great promise.
    And I thank you for your continuing interest in that, and 
the work that you are doing at CEQ. With that, I yield back.
    The Chairman. The time of the gentleman has expired. Before 
we close, I just want to briefly yield to the gentleman from 
New Jersey, Mr. Holt.
    Dr. Holt. I appreciate the courtesy of the Chair. Chair 
Sutley, I would like to just ask you one more question, and ask 
you to get back to me.
    In your written testimony you describe the work being done 
by the Rapid Response Team for Transmission, focusing on seven 
pilot project--transmission projects which, when built, are 
intended to integrate energy, renewable energy, into the grid.
    The Susquehanna-Roseland Line, one of these projects, would 
run through parts of New Jersey, including park land and other 
environmentally important areas--national park land, I should 
say.
    Some of my constituents have expressed concern that the 
line would, in fact, carry electricity from coal-fired plants, 
primarily. Although I don't expect you to be personally 
familiar with the details of that project, I would like to ask 
you to look into it, and reply to us on whether this is really 
a wise way to handle the project.
    The Chairman. If you could do that in writing, I would 
certainly appreciate that.
    Ms. Sutley. I would be happy to do that.
    Dr. Holt. Thank you.
    The Chairman. And finally, in my opening statement, in the 
letter that I had sent you asking for documents, you said you 
needed more time. I certainly recognize that, but we do want to 
get the information. And to follow up with Mr. Johnson, you 
said you would get back to him on the stream buffer in a timely 
manner also.
    I would like if you could get back to us by the end of the 
month. That gives you a whole month. We have obviously had a 
time--if you could commit to doing that, I would certainly 
appreciate that.
    Ms. Sutley. I will consult with my staff to make sure we 
can do it, but we will make every effort to do so.
    The Chairman. And communicate with us on that time frame.
    Ms. Sutley. Yes, absolutely.
    The Chairman. And finally, can we get a commitment also 
that you will provide a detailed spending plan for how much 
each agency is spending on the National Ocean Policy in Fiscal 
Year 2012, and the budget request for each agency that will 
participate in the National Ocean Policy for Fiscal Year 2013? 
Can we get a commitment that you will provide us with a 
detailed spending plan of that?
    Ms. Sutley. We will be happy to follow up with you on 
exactly what information you would like, and we will----
    The Chairman. Well, it is pretty simple. Agencies are 
participating in the Ocean Policy, and we want to know how much 
they are spending in that regard. It is nothing more 
complicated than that. What it was in 2012 and what the request 
is in 2013.
    Ms. Sutley. We will do our best.
    The Chairman. OK. Well, I hope you do better than your 
best; I hope we get the information.
    Ms. Sutley. Thank you.
    The Chairman. That is why we are having this hearing. I 
mean, after all, this is a budget hearing. And this is an issue 
that clearly has a lot of interest of Members, really, on both 
sides. So that is why we would like to have that information.
    Ms. Sutley. And we appreciate that, and appreciate your 
continued interest in this.
    The Chairman. OK. And what I would like is a commitment 
from you--is that, you know, my staff will be in touch with 
you. ``How are you going? Give us a status report.''
    Ms. Sutley. Yes, absolutely.
    The Chairman. OK? Will you commit to that?
    Ms. Sutley. Yes.
    The Chairman. All right. With that, I want to thank all 
Members for participating. As usual, there are always follow-up 
questions that comes from testimony. And so, if you could 
respond in writing to whatever Members in a timely manner, I 
would certainly appreciate it.
    Ms. Sutley. Yes, we certainly will do so.
    The Chairman. With that, Chairman Sutley, thank you very 
much for being here, and the time you have taken. With no 
further business before the Committee, the Committee stands 
adjourned.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
